APPENDIX

1a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

936 F.3d 1184
United States Court of Appeals, Eleventh Circuit.
REGIONS BANK, an Alabama state-chartered
bank, Plaintiff–Counter Defendant–Appellee,
v.
LEGAL OUTSOURCE PA, a Florida professional
association, Periwinkle Partners, LLC, a Florida
limited liability company, Charles PaulThomas Phoenix, individually, a.k.a. Charles
PT Phoenix, Lisa M. Phoenix, individually,
Defendants–Counter Claimants–Appellants.
No. 17-11736
|
(August 28, 2019)
Synopsis
Background: Following default on commercial loans, lender
brought action against borrowers and guarantors for breach of
the promissory notes and guaranties. Defendants interposed
counterclaims, asserting, inter alia, that lender discriminated
on the basis of marital status in violation of the Equal
Credit Opportunity Act (ECOA). The United States District
Court for the Middle District of Florida, No. 2:14-cv-000476FTM-MRM, John E. Steele, Senior District Judge, 2016
WL 4014875, granted lender's motion to dismiss the ECOA
counterclaim. Lender subsequently moved for summary
judgment. The District Court, No. 2:14-cv-000476-PAMMRM, Paul A. Magnuson, J., 2017 WL 443371, granted in
part and denied in part that motion. Defendants appealed.

Attorneys and Law Firms
*1186 John Albert Anthony, Stephenie Biernacki Anthony,
Andrew James Ghekas, Dominic A. Isgro, Anthony &
Partners, LLC, Tampa, FL, for Plaintiff-Appellee.
Jason Wayne Graham, Graham Legal, LLC, Sandy Springs,
GA, Charles PT Phoenix, Rhodes Tucker, Sanibel, FL, for
Defendants-Appellants.
Steven Y. Bressler, Assistant General Counsel for Litigation
and Oversight, Consumer Financial Protection Bureau, Office
of the General Counsel, Washington, DC, for Amicus Curiae
CONSUMER FINANCIAL PROTECTION BUREAU.
Andrew W. Muller, Stinson Morrison & Hecker, LLP, Kansas
City, MO, for AMERICAN BANKERS ASSOCIATION,
INDEPENDENT
COMMUNITY
BANKERS
OF
AMERICA, FLORIDA BANKERS ASSOCIATION,
ALABAMA BANKERS ASSOCIATION, MISSOURI
BANKERS ASSOCIATION.
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 2:14-cv-000476-PAMMRM
Before WILLIAM PRYOR, and ROSENBAUM, Circuit
Judges, and MOORE, * District Judge.
*

Honorable K. Michael Moore, United States District
Chief Judge for the Southern District of Florida, sitting
by designation.

Opinion
Holdings: The Court of Appeals, William Pryor, Circuit
Judge, held that:
addressing an issue of apparent first impression for the court,
a guarantor is not an “applicant” under the ECOA, and
defendant did not abandon her counterclaims by failing to
raise them “plainly and prominently” enough in defendants'
initial brief on appeal.
Affirmed and remanded with instructions.
Rosenbaum, Circuit Judge, filed opinion concurring in part
and dissenting in part.

WILLIAM PRYOR, Circuit Judge:
*1187 The main issue presented by this appeal has
divided our sister circuits: whether a guarantor constitutes
an “applicant” under the Equal Credit Opportunity Act.
See 15 U.S.C. §§ 1691(a), 1691a(b). Compare Hawkins v.
Cmty. Bank of Raymore, 761 F.3d 937 (8th Cir. 2014), aff’d
by an equally divided Court, ––– U.S. ––––, 136 S. Ct.
1072, 194 L.Ed.2d 163 (2016) (holding that a guarantor
unambiguously is not an “applicant” under the Act), and
Moran Foods, Inc. v. Mid-Atl. Mkt. Dev. Co., 476 F.3d 436
(7th Cir. 2007) (opining the same), with RL BB Acquisition,
LLC v. Bridgemill Commons Dev. Grp., 754 F.3d 380 (6th
Cir. 2014) (holding that the term “applicant” is ambiguous
and applying Chevron deference to an agency interpretation

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

2a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

that a guarantor is an “applicant”). Legal Outsource PA,
a law firm wholly owned by Charles Phoenix, defaulted
on a loan from Regions Bank, which triggered the default
of a loan and mortgage that Regions issued to Periwinkle
Partners, LLC, an entity wholly owned by Charles’s wife,
Lisa Phoenix. After the obligors refused to cure the defaults,
Regions sued to enforce its rights under the loans and
mortgage. The obligors filed several counterclaims asserting
that Regions violated the Equal Credit Opportunity Act by
discriminating against Lisa and Charles based on their marital
status when it demanded that they and Legal Outsource
guarantee the Periwinkle loan. The district court granted
summary judgment in favor of Regions. The district court
ruled that Lisa Phoenix’s counterclaims failed because she
lacked standing as an “applicant” when she was instead
a guarantor. Because we conclude that a guarantor is not
an “applicant” under the Equal Credit Opportunity Act, we
affirm the summary judgment in favor of Regions. But the
parties agree that we must remand to correct an error in the
judgment.

I. BACKGROUND
Beginning in 2005, Regions Bank extended a $450,000 line
of credit to Legal Outsource PA, a law firm owned by Charles
Phoenix. Legal Outsource renewed the loan on a yearly or
semi-yearly basis, and it was last renewed in May 2013
with a maturity date in February 2014. Charles Phoenix also
guaranteed the 2013 Outsource loan.
In 2011, Regions lent nearly $1.7 million to Periwinkle
Partners, LLC, for the purchase of a shopping center on
Sanibel Island, Florida. At that time, the sole member *1188
of Periwinkle Partners was a company owned by Charles
Phoenix’s wife, Lisa Phoenix. Charles Phoenix, Lisa Phoenix,
and Legal Outsource all guaranteed the Periwinkle loan.
Under the Periwinkle loan, a default by any of the parties,
including the guarantors, on any other loans that they had with
Regions constitutes a default under the Periwinkle loan.
In August 2013, Regions concluded that the Outsource and
Periwinkle loans were in default based on the obligors’ failure
to provide requested financial information and based on
Periwinkle’s failure to pay its property taxes. Regions then
warned the obligors several times that it would accelerate the
loans if the obligors failed to cure the default. In February
2014, the Outsource loan matured and Legal Outsource,
which was no longer in operation, failed to pay it. Two months

later, Regions declared the Outsource loan in default and
demanded its full and immediate payment. According to the
obligors, this declaration was a bad-faith attempt by Regions
to coerce Lisa Phoenix into securing the Outsource loan with
Periwinkle as collateral, but she refused to do so. After the
Outsource loan default, Regions also declared the Periwinkle
loan in default and demanded its full and immediate payment.
The obligors never cured any of the defaults.
In August 2014, Regions filed a complaint against Charles
and Lisa Phoenix, Legal Outsource, and Periwinkle Partners
for breach of the Legal Outsource promissory note and
guaranty, breach of the Periwinkle promissory note and
guaranties, foreclosure of the Periwinkle mortgage, and
receivership. The obligors answered the complaint and
interposed 73 affirmative defenses and eight counterclaims.
The obligors twice amended the answer and added four new
counterclaims that each asserted a violation of the Equal
Credit Opportunity Act. The counterclaims—three of which
were individually brought by Charles Phoenix, Lisa Phoenix,
and Legal Outsource respectively, and one of which was
brought by Lisa Phoenix and Periwinkle Partners—alleged
that Regions discriminated on the basis of marital status when
it required the Phoenixes and Legal Outsource to guarantee
the Periwinkle loan. Regions then moved to dismiss the
newly added counterclaims, and the district count granted that
motion in part. The district court ruled that the guarantors of
the Periwinkle loan all lacked statutory standing because they
were not “applicant[s]” under the Equal Credit Opportunity
Act. But the court also ruled that one of the counterclaims,
which was brought on behalf of Lisa Phoenix and Periwinkle
Partners, had sufficiently alleged that Lisa Phoenix and
Periwinkle Partners were “applicants” under the Act, so it
denied the motion as to that count.
After Regions moved for summary judgment, the district
court granted summary judgment in favor of Regions both for
its claims for breach of the promissory notes and guaranties
and against the obligors’ counterclaims. The district court
ruled that the obligors “do not dispute that they were in
default under the relevant notes and guaranties,” and it ruled
that the counterclaims had “no merit.” With respect to the
remaining counterclaim under the Equal Credit Opportunity
Act—the joint claim by Lisa Phoenix and Periwinkle—the
district court ruled that Periwinkle’s claim of discrimination
was “frivolous” because, as an entity, it had no marital status.
And the district court ruled that “[t]he claim fails as to Lisa
Phoenix as well because, aside from the lack of any evidence

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

3a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

to establish any alleged discrimination on the basis of marital
status, she was not an ‘applicant’ for the Periwinkle loan[;]
she was a guarantor.” The district court referred to its earlier
order ruling that guarantors were not “applicants.”
*1189 The district court later issued a second summary
judgment order granting foreclosure on the Periwinkle
mortgage. The court then dismissed the matter with prejudice
and directed the clerk to enter the judgment. The clerk entered
the judgment, and the obligors filed their notice of appeal.
Regions moved to amend the judgment to state, among other
things, the amounts due to Regions from the obligors. The
district court granted Regions’ motion in part, instructing
the clerk to enter an amended judgment providing for the
following relief:

[T]he Court will order the Clerk to
amend the Judgment to provide that
Regions Bank prevails on its claims
against Defendants. The Judgment will
further provide that Regions Bank is
entitled to recover $540,054.24 from
Defendants for the Legal Outsource
loan ....

The clerk then entered the amended judgment, and the
obligors amended their notice of appeal to include the
order granting Regions’ motion to clarify and the amended
judgment among the items subject to their appeal.

II. STANDARD OF REVIEW
We review a grant of summary judgment de novo. Moore ex
rel. Moore v. Reese, 637 F.3d 1220, 1231 (11th Cir. 2011).

III. DISCUSSION
This appeal presents several issues about whether the obligors
are liable for the default of the Legal Outsource loan and the
Periwinkle loan and mortgage. Although the obligors raise a
host of issues that seek to obscure the nature of their defaults,
all but one of them lack any merit, and some border on being
frivolous. We decline to address them any further.

We divide our discussion of the remaining issues in two parts.
First, we explain that Lisa Phoenix’s counterclaims under
the Equal Credit Opportunity Act fail because a guarantor
does not qualify as an “applicant” under the Act. Second, we
explain that a limited remand to correct erroneous language
from the amended judgment is warranted.

A. The District Court Correctly Granted
Summary Judgment Against the Equal Credit
Opportunity Act Counterclaims by Lisa Phoenix.
The district court did not err when it granted summary
judgment against the counterclaims by Lisa Phoenix under the
Equal Credit Opportunity Act. As an initial matter, although
the obligors briefly mention Periwinkle’s counterclaim in
their argument about the Equal Credit Opportunity Act, they
have failed to argue or cite caselaw in either the district court
or on appeal to rebut the conclusion that its status as an entity
defeats its claim, as the district court ruled, so we consider
that issue abandoned. See Sapuppo v. Allstate Floridian Ins.
Co., 739 F.3d 678, 680 (11th Cir. 2014) (“[A]n appellant
must convince us that every stated ground for the judgment
against him is incorrect.”). We discuss only our reasons for
concluding that the district court correctly granted summary
judgment against Lisa Phoenix’s counterclaims on the ground
that a guarantor is not an “applicant” for credit within the
meaning of the Act, see 15 U.S.C. § 1691a(b).
The Equal Credit Opportunity Act makes it unlawful for “any
creditor to discriminate against any applicant, with respect
to any aspect of a credit transaction ... on the basis of ...
marital status.” Id. § 1691(a)–(a)(1). The Act defines an
“applicant” as “any person who applies to a creditor directly
for ... credit, or applies to a creditor indirectly by use of
an existing credit plan for an amount exceeding a *1190
previously established credit limit.” Id. § 1691a(b) (emphases
added). The Act initially required the Federal Reserve Board
to promulgate regulations to enforce the Act. See 15 U.S.C.
§ 1691b (1974). And the Federal Reserve Board promulgated
Regulation B, which defines an applicant as “any person
who requests or who has received an extension of credit
from a creditor,” which includes “any person who is or may
become contractually liable regarding an extension of credit.”
12 C.F.R. § 202.2(e). That regulation further provides that the
term “applicant” includes “guarantors, sureties, endorsers,
and similar parties.” Id. (emphasis added). Regulation B
also prohibits a creditor from requiring the signature of
an applicant’s spouse, other than a joint applicant, on any

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

4a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

credit instrument if the applicant independently qualifies as
creditworthy. Id. § 202.7(d)(1).
The obligors rely on the definition of “applicant” in
Regulation B to argue that Lisa Phoenix has statutory standing
under the Act, so we must determine whether we should defer
to this regulation under the two-step framework announced
in Chevron, U.S.A., Inc. v. Nat’l Res. Def. Council, Inc., 467
U.S. 837, 104 S.Ct. 2778, 81 L.Ed.2d 694 (1984). See Arevalo
v. U.S. Att’y Gen., 872 F.3d 1184, 1187–88 (11th Cir. 2017).
First, we ask whether, after applying the “traditional tools of
statutory construction,” we can determine whether Congress
has spoken clearly on the issue. Barton v. U.S. Att’y Gen.,
904 F.3d 1294, 1298 (11th Cir. 2018) (quoting Fajardo v.
U.S. Att’y Gen., 659 F.3d 1303, 1307 (11th Cir. 2011)). If
the statute is unambiguous, we apply it according to its terms
and give no deference to the administrative interpretation.
Arevalo, 872 F.3d at 1188. Second, “if the statute is silent
or ambiguous with respect to the specific issue presented,
we must then determine whether the agency’s interpretation
is reasonable or based on a permissible construction of the
statute.” Id. An interpretation is reasonable if it is “rational
and consistent with the statute.” Id. (quoting Sullivan v.
Everhart, 494 U.S. 83, 89, 110 S.Ct. 960, 108 L.Ed.2d 72
(1990)).
In applying the “traditional tools of statutory construction,”
we begin “with the statutory text, and proceed from the
understanding that unless otherwise defined, statutory terms
are generally interpreted in accordance with their ordinary
meaning.” Barton, 904 F.3d at 1298 (quoting Sebelius v.
Cloer, 569 U.S. 369, 376, 133 S.Ct. 1886, 185 L.Ed.2d
1003 (2013)); see also Antonin Scalia & Bryan A. Garner,
Reading Law: The Interpretation of Legal Texts § 6, at
69 (2012) (“Words are to be understood in their ordinary,
everyday meaning—unless the context indicates that they
bear a technical sense.”). And we interpret the words of a
statute based on their meaning at the time of enactment. See
New Prime Inc. v. Oliveira, ––– U.S. ––––, 139 S. Ct. 532,
539, 202 L.Ed.2d 536 (2019); Scalia & Garner, Reading Law
§ 7, at 78 (“Words must be given the meaning they had when
the text was adopted.”).
The Act, which was adopted in 1974, defines an applicant
as “any person who applies to a creditor directly for ...
credit, or applies to a creditor indirectly by use of an
existing credit plan for an amount exceeding a previously
established credit limit.” 15 U.S.C. § 1691a(b) (emphases
added). English-language dictionaries both before and after

the enactment define the term “apply” to refer to a request
for something. See Apply, 1 The Oxford English Dictionary
407 (corr. reprint 1961) (1933) (“To address oneself for
information or aid, to have recourse, to make application
to”); Apply, 1 The Oxford English Dictionary 577 (2d ed.
1989) (same); Apply, Webster’s New International Dictionary
of the English Language (Webster’s Second) 132 (2d ed.
1961) (“To make request; to have recourse with a view to
gain something; to *1191 solicit”); Apply, Webster’s New
Collegiate Dictionary 55 (1977) (“[T]o make an appeal or
request esp[ecially] in the form of a written application”). So
too do legal dictionaries. See Apply, Black’s Law Dictionary
128 (rev. 4th ed. 1968) (“To make a formal request or petition,
usually in writing, to a court, officer, board, or company, for
the granting of some favor, or of some rule or order, which
is within his or their power or discretion”); Application, id.
at 127 (“The act of making a request for something”). The
Sixth and Eighth Circuits have also both cited a definition
of the term “apply” as meaning “a request ... usually for
something of benefit to oneself.” See Hawkins, 761 F.3d at
941 (alteration adopted) (emphasis added) (quoting Webster’s
Third New Int’l Dictionary 105 (2002)); RL BB, 754 F.3d
at 385 (quoting Webster’s Third New Int’l Dictionary 105
(1993)); see also Apply, Webster’s Third New Int’l Dictionary
105 (1971) (defining “apply” as “to make an appeal or
a request esp[ecially] formally and often in writing and
usu[ally] for something of benefit to oneself”). So, taken
together, these definitions suggest that the ordinary meaning
of the term “applicant” is one who requests credit to benefit
himself.
A guarantor does not fit within this definition. At the time of
enactment, English-language dictionaries defined “guaranty”
to mean a promise by a guarantor to answer for the payment
of some debt if the person liable in the first instance is unable
to pay. See Guaranty, 4 The Oxford English Dictionary 477
(corr. reprint 1961) (1933) (“a written undertaking made by
a person (called the guarantor) to be answerable for the
payment of a debt or the performance of an obligation by
another person, who is in the first instance liable to such
payment or obligation”); Guaranty, 6 The Oxford English
Dictionary 912 (2d ed. 1989) (same); Guaranty, Webster’s
Second 1110 (“[A] undertaking to answer for the payment
of some debt, or the performance of some duty, of another,
in case of the failure of such other to pay or perform”);
Guaranty, Webster’s New Collegiate Dictionary 509 (“[A]n
undertaking to answer for the payment of a debt or the
performance of a duty of another in case of the other’s default
or miscarriage”). Legal dictionaries defined “guaranty” the

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

5a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

same way. See Guaranty, Black’s Law Dictionary 833 (rev.
4th ed.) (“A promise to answer for payment of debt or
the performance of obligation if person liable in the first
instance fails to make payment or perform obligation”);
Guarantor, Black’s Law Dictionary 634 (5th ed. 1979)
(“One who becomes secondarily liable for another’s debt or
performance”). Although a guarantor makes a promise related
to an applicant’s request for credit, the guaranty is not itself
a request for credit, and certainly not a request for credit for
the guarantor. See Hawkins, 761 F.3d at 942 (“We find it to be
unambiguous that assuming a secondary, contingent liability
does not amount to a request for credit.”).
To be sure, as the dissent points out, a guarantor’s promise
supports a would-be debtor’s loan application and ordinarily
stems from the guarantor’s desire that the application be
granted. See Dissenting Op. at 1212–13. But to say that
a guarantor requests credit by supporting another’s request
for credit is to push the bounds of ordinary usage—at the
very least, it is to use one word in two obviously different
senses. And to say that the guarantor applies for credit by
supporting another’s application is to leave ordinary usage
behind entirely.
An example should make this point clear. Suppose a highschool senior is applying to her parents’ alma mater, and
her parents—who happen to be wealthy donors—promise
the school that they will make a large gift if their daughter
is admitted. The parents’ promise supports the *1192
daughter’s application for admission, just as a guarantor’s
promise supports a loan applicant’s application for credit. The
parents will be grateful if their daughter is admitted, as a
guarantor ordinarily is grateful when the debtor’s application
for credit is granted. But it would be unnatural to say that
the parents have “applied” for their daughter’s admission or
to call them “applicants” for admission. Under any ordinary
use of the word, the student is the only “applicant” in this
scenario.
Applying the whole-text and consistent-usage canons to the
Act further confirms that the term “applicant” excludes
guarantors. The whole-text canon refers to the principle that a
“judicial interpreter [should] consider the entire text, in view
of its structure and of the physical and logical relation of
its many parts,” when interpreting any particular part of the
text. Scalia & Garner, Reading Law § 24, at 167. “Properly
applied, it typically establishes that only one of the possible
meanings that a word or phrase can bear is compatible with
use of the same word or phrase elsewhere in the statute ....”

Id. at 168. Closely related to the whole-text canon is the
principle that “[a] word or phrase is presumed to bear the same
meaning throughout a text” unless context requires otherwise.
Id. § 25, at 170; accord Atl. Cleaners & Dyers v. United
States, 286 U.S. 427, 433, 52 S.Ct. 607, 76 L.Ed. 1204 (1932)
(“Undoubtedly, there is a natural presumption that identical
words used in different parts of the same act are intended to
have the same meaning.”).
As Judge Colloton explained in his concurring opinion in
Hawkins, three aspects of the statutory text strongly suggest
that the term “applicant” is only compatible with “a first-party
applicant who requests credit to benefit herself.” Hawkins,
761 F.3d at 943 (Colloton, J., concurring). First, the Act uses
the term “applicant” in several provisions that can only refer
to a first-party applicant. For example, section 1691 speaks
of a “completed application for credit,” 15 U.S.C. § 1691(d)
(1), and of a creditor taking action in connection with the
“applicant’s application for a loan,” id. § 1691(e)(1). We agree
that “it would be unnatural to conclude that a third party who
offers a promise in support of an applicant thereby submits
what the statute describes as an ‘application for a loan,’
and a ‘completed application for credit.’ ” Hawkins, 761
F.3d at 943–44 (Colloton, J., concurring) (citations omitted).
Similarly, the Act provides that within thirty days “after
receipt of a completed application for credit, a creditor shall
notify the applicant of its actions on the application.” 15
U.S.C. § 1691(d)(1) (emphasis added). “The statute’s use of
the definite article shows that applicant is the single person
to whom credit would be extended, not a third party asking
on behalf of the putative debtor.” Hawkins, 761 F.3d at 943
(Colloton, J., concurring). In contrast with these provisions,
we are aware of no instance in which the Act refers to an
“applicant” in a context that would naturally suggest that a
third-party guarantor could qualify.
Second, the statutory definition of “adverse action” on a credit
application excludes from that phrase “a refusal to extend
additional credit under an existing credit arrangement where
the applicant is delinquent or otherwise in default.” 15 U.S.C.
§ 1691(d)(6) (emphasis added). This provision suggests that
“the applicant” has received credit and is responsible for
making payments on an existing loan. “A guarantor or other
third-party requestor does not in ordinary usage become
‘delinquent’ or ‘in default’ on a loan or other existing
credit arrangement.” Hawkins, 761 F.3d at 944 (Colloton,
J., concurring). And “if a guarantor could be an ‘applicant,’
then the creditor’s refusal to extend additional credit to a
delinquent borrower would be an ‘adverse action’ on the

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

6a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

guarantor’s ‘application, *1193 ’ thus entitling the thirdparty guarantor to a statement of reasons that the creditor need
not furnish to the first-party applicant. [15 U.S.C.] § 1691(d)
(2).” Id. As Judge Colloton concluded, “This is not a natural
reading of the text.” Id.
Third, the Act recognizes that third parties can be involved
in requesting an extension of credit to a first-party applicant,
but it “distinguishes between the third-party requestor and the
‘applicant.’ ” Id. The Act provides that “[w]here a creditor has
been requested by a third party to make a specific extension
of credit directly or indirectly to an applicant, the notification
and statement of reasons required by this subsection may be
made directly by such creditor, or indirectly through the third
party, provided in either case that the identity of the creditor
is disclosed.” Id. (alterations adopted) (quoting 15 U.S.C. §
1691(d)(4)). That Congress chose to use the term “applicant”
to refer to the party receiving the credit and “third party” to
refer to a separate party who requests an extension of credit
for the “applicant” is telling. In short, after examining the
term “applicant” in the context of the statute as a whole, we
conclude that there is ample evidence that the term bears
the ordinary meaning of a person who requests a benefit for
himself.
Two of the three of our sister circuits that have considered
whether the administrative interpretation of the term
“applicant” deserves Chevron deference have also concluded
that the Act unambiguously excludes guarantors. See
Hawkins, 761 F.3d at 942 (rejecting Chevron deference and
explaining “[w]e find it to be unambiguous that assuming a
secondary, contingent liability does not amount to a request
for credit”); Moran, 476 F.3d at 441 (“[T]here is nothing
ambiguous about ‘applicant’ and no way to confuse an
applicant with a guarantor.”). But see RL BB, 754 F.3d at
385 (applying Chevron deference to section 202.2(e) on
the theory that the term “applies” is ambiguous and that
guarantors qualify as requesting credit because they “make
formal requests for aid in the form of credit for a third party”).
Because we agree with the Seventh and Eighth Circuits that
the ordinary meaning of “applicant” does not encompass a
guarantor, we hold that no deference is due section 202.2(e).
So the district court correctly granted summary judgment
against the counterclaim by Lisa Phoenix because she was not
an “applicant” under the Act.
The dissenting opinion disagrees with our analysis of the
meaning of the term “applicant” under the Act on three
grounds. First, the dissent argues that the ordinary meaning

of the word “applicant” reasonably includes guarantors.
Dissenting Op. at 1212–13. Second, the dissent contends that
our analysis fails to reflect the “overriding national policy
against discrimination that underlies the [ECOA].” Id. at 1219
(alteration in original) (internal quotation marks omitted).
Along the way to that conclusion, the dissent relies on two
favorites of purposivists: the notion that the Act, as a remedial
statute, must be construed broadly, id. at 1207–08, 1212,
1214–17, 1219, and the notion that the words of the Act must
be construed in the light of the Act’s overall purpose, id. at
1219. Finally, the dissent contends that Congress acquiesced
to the Board’s definition of “applicant” by failing to amend
the Act to expressly preclude the Board’s definition. Id. at
1220–22. None of these reasons is persuasive.
The dissent’s analysis begins by focusing on how the
word “any” appears four times in two relevant sentences
of the Act. Id. at 1212 (quoting 15 U.S.C. § 1691(a)(1)
(making it “unlawful for any creditor to discriminate against
any application, with respect to any aspect of a credit
transaction ....” (emphases added)); id. § 1691a(b) *1194
(defining “applicant” to mean “any person who applies to a
creditor directly for ... credit” (emphasis added))). The dissent
argues that the repeated use of the word “any” suggests that
Congress intended for the statute to have expansive reach
and that we should not “engraft artificial limitations” to curb
the “expansive remedial purposes” of the Act. Id. at 1212
(quoting Blue Shield of Va. v. McCready, 457 U.S. 465, 472,
102 S.Ct. 2540, 73 L.Ed.2d 149 (1982)). If all the dissent is
arguing is that we should not go beyond the ordinary meaning
of the term “applicant” to narrow it artificially, we agree
entirely.
But the use of the word “any” does not change the meaning of
the term “applicant.” We have repeatedly explained that when
Congress uses the word “any” without “language limiting
the breadth of that word, ‘any’ means all.” CBS Inc. v.
PrimeTime 24 Joint Venture, 245 F.3d 1217, 1223 (11th Cir.
2001) (alteration adopted) (quoting Merritt v. Dillard Paper
Co., 120 F.3d 1181, 1186 (11th Cir. 1997)). So when the Act
speaks of an applicant as “any person who applies to a creditor
directly for ... credit,” the word “any” signifies only that all
persons who apply to a creditor directly for credit qualify. The
word or term that is modified by “any” is still defined by its
ordinary meaning. See, e.g., id. (using dictionary definitions
to interpret the word “termination” from “any termination”).
So the relevant question remains what the ordinary meaning
of the term “person who applies to a creditor directly for ....
credit” includes.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

7a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

The dissent’s attempt to answer this question leans heavily on
the definition of “apply” as “to make an appeal or request ...
usually for something of benefit to oneself.” Dissenting Op.
at 1213 (emphasis altered) (quoting Hawkins, 761 F.3d at
941 (quoting Webster’s Third New Int’l Dictionary at 105
(1993))). The dissent reasons, “[o]bviously, if something
is ‘usually for something of benefit to oneself,’ it must
sometimes be for something of benefit to another.” Id.
(emphasis altered). So, the dissent concludes, the word
“applicant” can fairly be interpreted to include a guarantor.
Yet the definition the dissent relies on proves the opposite. As
Judge Colloton pointed out in his concurrence in Hawkins,
“under th[e] usual meaning, an ‘applicant’ who ‘applies for
credit’ is one who requests credit to benefit herself, not credit
to benefit a third party. That there are unusual meanings of
‘apply’ that encompass making a request on behalf of another
is not sufficient to make a term ambiguous for purposes of
Chevron.” 761 F.3d at 943 (Colloton, J., concurring). The
only circumstance in which it is reasonable to construe a term
according to an unusual meaning is when the context makes
the unusual meaning a natural one. But, as we have explained,
there is nothing natural about calling a guarantor an applicant
for credit, and the whole text of the Act makes that usage even
less plausible.
The dissent charges that our reading of the Act fails to apply
the whole-text canon, Dissenting Op. at 1214–15, 1214 n.20,
but the dissent’s assertion is notably lacking in references to
the text. According to the dissent, if we viewed the Act as a
whole, we would see that “ ‘[t]he overriding national policy
against discrimination that underlies the [Act]’ means that ‘we
cannot give’ words in that statute a ‘narrow interpretation.’
” Id. at 1219 (quoting Bros. v. First Leasing, 724 F.2d 789,
793 (9th Cir. 1984)). But apart from its logically irrelevant
reliance on the word “any,” the dissent fails to point to
any other provisions of the Act that suggest that the term
“applicant” includes a third party who requests a benefit for
the first-party applicant. And it is hornbook abuse *1195 of
the whole-text canon to argue “that since the overall purpose
of the statute is to achieve x, any interpretation of the text
that limits the achieving of x must be disfavored.” Scalia &
Garner, Reading Law § 24, at 168.
The dissent also contends that we fail to reconcile our reading
of the text with the “familiar canon of statutory construction
that remedial legislation should be construed broadly to
effectuate its purposes.” Dissenting Op. at 1214 (internal

quotation marks omitted) (quoting Tcherepnin v. Knight, 389
U.S. 332, 336, 88 S.Ct. 548, 19 L.Ed.2d 564 (1967)). Indeed,
we do not apply this so-called canon because it is of dubious
value. An eight-member majority of the Supreme Court has
ridiculed it as “th[e] last redoubt of losing causes,” Dir., Office
of Workers’ Comp. Programs, Dep’t of Labor v. Newport
News Shipbuilding & Dry Dock Co., 514 U.S. 122, 135,
115 S.Ct. 1278, 131 L.Ed.2d 160 (1995), and the Court has
rejected applying it in a number of other decisions since 1995.
See, e.g., CTS Corp. v. Waldburger, 573 U.S. 1, 12, 134
S.Ct. 2175, 189 L.Ed.2d 62 (2014) (“The Court of Appeals
supported its interpretation of [section] 9658 by invoking
the proposition that remedial statutes should be interpreted
in a liberal manner. The Court of Appeals was in error
when it treated this as a substitute for a conclusion grounded
in the statute’s text and structure.”); Norfolk S. Ry. Co. v.
Sorrell, 549 U.S. 158, 171, 127 S.Ct. 799, 166 L.Ed.2d 638
(2007) (rejecting argument based on remedial-purpose canon
and explaining that although a statute’s remedial purpose
was to benefit employees, “this remedial purpose [does not]
require[ ] us to interpret every uncertainty in the Act in favor
of employees”); Household Credit Servs., Inc. v. Pfennig, 541
U.S. 232, 237, 244, 124 S.Ct. 1741, 158 L.Ed.2d 450 (2004)
(reversing court of appeals that relied on remedial-purpose
canon to broadly interpret the term “finance charge” from the
Truth in Lending Act); Inyo Cty. v. Paiute-Shoshone Indians
of the Bishop Cmty. of the Bishop Colony, 538 U.S. 701,
710–12, 123 S.Ct. 1887, 155 L.Ed.2d 933 (2003) (rejecting
argument based on the remedial-purpose canon that the term
“person” should be construed broadly under a statute to
include Native American tribes). As the Supreme Court has
recently explained, the fundamental problem with this socalled canon is its indeterminate coverage, as “almost every
statute might be described as remedial in the sense that all
statutes are designed to remedy some problem.” CTS Corp.,
573 U.S. at 12, 134 S.Ct. 2175. And the “canon” too is
of indeterminate effect because, “even if the Court [has]
identified some subset of statutes as especially remedial, [it]
has emphasized that no legislation pursues its purposes at all
costs.” Id. (citation and internal quotation marks omitted).
Indeed, it is hard to imagine a more widely criticized “canon”
of interpretation. A leading treatise has labeled it a “false”
canon and has explained that it is “an open invitation to
engage in ‘purposive’ rather than textual interpretation, and
generally to engage in judicial improvisation.” Scalia &
Garner, Reading Law § 64, at 364–66. And jurists as varied as
Antonin Scalia and Richard Posner share the same view. See
Antonin Scalia, Assorted Canards of Contemporary Legal

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

8a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

Analysis, 40 Case W. Res. L. Rev. 581, 581 (1990) (calling the
canon one of “the prime examples of lego-babble”); Richard
A. Posner, Statutory Interpretation—in the Classroom and
in the Courtroom, 50 U. Chi. L. Rev. 800, 809 (1983)
(explaining that the canon is “unrealistic about legislative
objectives” because it assumes that legislatures pursue a
single remedial purpose, when in reality a “statute [often] is
a compromise between one group of legislators that holds a
simple remedial objective but lacks a majority and another
group that has reservations about *1196 the objective”). We
agree with these authorities that we should not employ this
false canon to contravene the text of the Act.
The dissent also insists that we must “construe the literal
language of the [Act]” in the light of the “overriding
national policy against discrimination that underlies the
[Act].” Dissenting Op. at 1219 (quoting First Leasing, 724
F.2d at 793). We take no issue with the dissent’s explanation
of the vital role that women have played in our nation’s
history, of the discrimination they have faced in obtaining
credit, and that one of the purposes of the Act was to remedy
this discrimination. See Dissenting Op. at 1208–12. But the
dissent ignores that “[n]o legislation pursues its purposes at all
costs,” and that “it frustrates rather than effectuates legislative
intent simplistically to assume that whatever furthers the
statute’s primary objective must be the law.” Pension Benefit
Guar. Corp. v. LTV Corp., 496 U.S. 633, 646–47, 110 S.Ct.
2668, 110 L.Ed.2d 579 (1990) (quoting Rodriguez v. United
States, 480 U.S. 522, 525–26, 107 S.Ct. 1391, 94 L.Ed.2d
533 (1987)). When a statute includes limiting provisions,
those provisions “are no less a reflection of the genuine
‘purpose’ of the statute than the operative provisions, and it is
not the court’s function to alter the legislative compromise.”
Scalia & Garner, Reading Law at 21. Here, Congress created
a right that runs only to “applicants.” And as the Seventh
Circuit explained in Moran, because the term “applicant”
unambiguously does not encompass “guarantors,” reading
the statute in the way the dissent does would frustrate the
limitations that Congress imposed on statutory standing and
“opens vistas of liability” that Congress did not envision. 476
F.3d at 441.
The dissent’s final substantive argument is that Congress has
impliedly adopted the Board’s definition of “applicant” by
amending the Act without changing the statutory definition
during the 30 years since Regulation B was first promulgated.
Dissenting Op. at 1220–22. Although the Supreme Court
has recognized that congressional inaction can, in limited
circumstances, support an inference that Congress has

acquiesced to an agency or judicial interpretation, it has
explained that “[l]egislative silence is a poor beacon to
follow” in construing a statute. Zuber v. Allen, 396 U.S.
168, 185, 90 S.Ct. 314, 24 L.Ed.2d 345 (1969). And
it has repeatedly warned that congressional silence alone
is ordinarily not enough to infer acquiescence. See Solid
Waste Agency of N. Cook Cty. v. U.S. Army Corps of
Eng’rs, 531 U.S. 159, 169, 121 S.Ct. 675, 148 L.Ed.2d
576 (2001) (“Although we have recognized congressional
acquiescence to administrative interpretations of a statute in
some situations, we have done so with extreme care.”); United
States v. Riverside Bayview Homes, Inc., 474 U.S. 121, 137,
106 S.Ct. 455, 88 L.Ed.2d 419 (1985) (“[W]e are chary of
attributing significance to Congress’ failure to act ....”); Bob
Jones Univ. v. United States, 461 U.S. 574, 600, 103 S.Ct.
2017, 76 L.Ed.2d 157 (1983) (“Nonaction by Congress is not
often a useful guide ....”).
The dissent cites Texas Department of Housing & Community
Affairs v. Inclusive Communities Project, Inc., ––– U.S. ––––,
135 S. Ct. 2507, 192 L.Ed.2d 514 (2015), in arguing that we
should infer congressional acquiescence, Dissenting Op. at
1220–21, but this reliance is misplaced. There, the Supreme
Court held that when Congress amended the Fair Housing Act
in 1988, it was aware of and adopted the unanimous view
of nine circuits that had considered the matter and concluded
that the statute authorized disparate-impact claims. See Texas
Dep’t of Hous., 135 S. Ct. at 2519.
*1197 The dissenting opinion contends that until 2014,
the “vast majority of courts” that had “examined” the issue
held that guarantors had standing under the Equal Credit
Opportunity Act, Dissenting Op. at 1220–21 (quoting RL BB,
754 F.3d at 386), but this argument is misleading. Before
2007, several federal and state courts applied Regulation B,
but they did so without discussing whether it was entitled
to deference. See, e.g., Silverman v. Eastrich Multiple Inv’r
Fund, L.P., 51 F.3d 28, 30–31 (3d Cir. 1995) (assuming
without discussion that the Board’s interpretation was valid);
Fed. Deposit Ins. Corp. v. Medmark, Inc., 897 F. Supp. 511,
514 (D. Kan. 1995) (same); see also United States v. L.A.
Tucker Truck Lines, Inc., 344 U.S. 33, 38, 73 S.Ct. 67, 97
L.Ed. 54 (1952) (explaining that a decision is not precedential
with respect to an issue “not there raised in briefs or argument
nor discussed in the opinion of the Court”). To our knowledge,
the first court to “examine[ ]” whether the Board’s definition
deserved deference was the Seventh Circuit in Moran, in
2007, and it concluded that it did not. See 476 F.3d. at 441.
By the time Congress next amended the Act in July 2010, the

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

9a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

only other courts to opine on the issue were a federal district
court, which agreed with Moran and ruled that guarantors
lack statutory standing, see Champion Bank v. Reg’l Dev.,
LLC, No. 4:08-cv-1807-CDP, 2009 WL 1351122, at *3 (E.D.
Mo. May 13, 2009) (reasoning that “a guarantor does not,
by definition, apply for anything”), and the Supreme Court
of Iowa, which applied Regulation B without considering
Moran or whether it was entitled to deference, see Bank of
the West v. Kline, 782 N.W.2d 453, 458 (Iowa 2010). So when
Congress amended the Act in 2010, the weight of reasoned
authority was against the Board’s definition of applicant. And
Congress’s prior amendments to the Act took place before
any court had considered the validity of Regulation B. This
situation obviously is nothing like the unanimous, reasoned
precedent of nine circuits in favor of an agency interpretation
featured in Texas Department of Housing. We can hardly infer
congressional acquiescence in this circumstance.
The dissent advances one other objection to our analysis:
that it “opine[s] on an issue that ... Lisa Phoenix and
Periwinkle ... never raised on appeal.” Dissenting Op. at 1200.
As the dissent sees it, Lisa Phoenix has abandoned both
of her counterclaims by failing to raise them “plainly and
prominently” enough in the obligors’ initial brief. Id. at 1202
(quoting Sapuppo, 739 F.3d at 681). We disagree.
To be sure, the obligors’ briefing could most charitably be
described as clumsy. We emphatically “do not condone the
unartful way in which [the obligors] ha[ve] stated and argued
the issues on this appeal.” Fed. Sav. & Loan Ins. Corp. v.
Haralson, 813 F.2d 370, 373 n.3 (11th Cir. 1987). Even so,
reading their initial brief in the light of the record, the other
briefs in this appeal, and the principle that “briefs should be
read liberally to ascertain the issues raised on appeal,” Allstate
Ins. Co. v. Swann, 27 F.3d 1539, 1542 (11th Cir. 1994), we
have no doubt that Lisa Phoenix has fairly presented the
argument that the district court erred when it dismissed at least
one of her counterclaims relating to the Periwinkle loan based
on her status as a guarantor.
Consider what happened in the district court. The
obligors pleaded four counterclaims under the Equal Credit
Opportunity Act based on the Periwinkle loan: one by
Charles Phoenix, one by Legal Outsource, one by Lisa
Phoenix and Periwinkle Partners jointly, and one by Lisa
Phoenix individually. Citing Hawkins for the proposition that
guarantors are not applicants, the district court dismissed the
claims by Charles Phoenix, Legal Outsource, *1198 and
Lisa Phoenix individually on the ground that those claims

rested solely on guarantor standing. But the district court
withheld judgment on the joint claim by Lisa Phoenix and
Periwinkle because that claim—counterclaim 11—appeared
to allege that both Lisa Phoenix and Periwinkle were
applicants. After further considering the matter, the district
court granted summary judgment against counterclaim 11
on the grounds that Lisa Phoenix lacked standing and that
Periwinkle had no marital status. The district court also
mentioned “the lack of any evidence to establish any alleged
discrimination on the basis of marital status,” which was
a sufficient alternative basis for the summary judgment,
although the district court did not clearly designate it as such.
Now consider the briefs. In a discrete section of their initial
brief, the obligors protest the district court’s “reli[ance] ...
on the Eighth Circuit’s ruling in Hawkins” “to substantiate
dismissing Lisa Phoenix’s and Periwinkle’s claims” under
the Equal Credit Opportunity Act. Initial Br. of Appellants
at 30. And they argue that the regulation defining the term
“applicant” to include guarantors, see 12 C.F.R. § 202.2(e),
is a valid exercise of regulatory power to implement the
Act. Initial Br. of Appellants at 31–32. They conclude that
the claims by “Lisa Phoenix and Periwinkle” “fall squarely
within ECOA’s protections.” Id. at 32.
Logically, this argument can relate only to counterclaim
11—the joint claim by Lisa Phoenix and Periwinkle—
or counterclaim 12—Lisa Phoenix’s individual claim as a
guarantor of the Periwinkle loan. That the brief refers to both
Lisa Phoenix and Periwinkle suggests that the obligors might
have counterclaim 11 in mind, but the district court did not
rely on Hawkins to dismiss any claim by Periwinkle. But,
with respect to Lisa Phoenix, the argument responds squarely
to the primary basis on which the district court dismissed
her share of counterclaim 11 and the sole basis on which
it dismissed her counterclaim 12. In this circumstance, we
cannot agree with the dissent that “no claim is properly before
us on appeal.” Dissenting Op. at 1201.
Consider the consequences if we accepted the obligors’
argument—that is, if the obligors convinced us that the
district court erred when it “relied ... on the Eighth Circuit’s
ruling in Hawkins to substantiate dismissing Lisa Phoenix’s
and Periwinkle’s claims” because, contrary to Hawkins,
guarantors are applicants under the Act. Initial Br. of
Appellants at 30. In that case, they necessarily would have
convinced us that “every stated ground for the judgment
against [counterclaim 12] is incorrect,” which is exactly what
we have said an appellant must do “[t]o obtain reversal of a

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

9

10a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

district court judgment.” Sapuppo, 739 F.3d at 680. They also
would have convinced us that the primary and arguably the
only “stated ground for the judgment against [counterclaim
11] is incorrect.” Id. So, unless some alternative ground
for affirmance appeared from Regions’ brief or from the
record, accepting the obligors’ argument would require us to
reverse the dismissal of counterclaim 12 at least and perhaps
counterclaim 11 as well.
We consider it telling that Regions agrees with us, at least
in part, that the obligors have raised the issue of guarantor
standing. In its brief, Regions contends that the obligors
“have waived or abandoned any issue or argument with
respect to the dismissal of [counterclaims] IX, X, and XII.”
Br. of Appellee Regions Bank at 34. But Regions does not
contend that the obligors have abandoned counterclaim 11
or the general issue of guarantor standing. On the contrary,
it reads the obligors’ brief to “contend ... that summary
judgment for Regions on Counterclaim count XI was in error
because, under the definition of *1199 ‘applicant’ supplied
in Regulation B [the governing regulation], Mrs. Phoenix
possessed standing to sue in her capacity as a guarantor of the
Periwinkle loan.” Id. Regions proceeds to argue on the merits
that the district court correctly granted summary judgment
against counterclaim 11 because the obligors have produced
no evidence of discrimination and because guarantors are not
applicants. See id. at 35–42.
That Regions does not share the dissent’s view that
Lisa Phoenix “indisputably abandoned” counterclaim 11 is
relevant in two respects. Dissenting Op. at 1203. First, even if
Lisa Phoenix waived or forfeited counterclaim 11 in her initial
brief, Regions has waived or forfeited the waiver or forfeiture
by conceding in its own brief that she raised it. And nothing
Regions said at oral argument can undo that concession. See
APA Excelsior III L.P. v. Premiere Techs., Inc., 476 F.3d 1261,
1269 (11th Cir. 2007) (“[W]e do not consider claims not
raised in a party’s initial brief and made for the first time at
oral argument.”).
The second way in which Regions’ concession matters is
that the main principle that animates the abandonment rule
is fair notice. As we have explained, “an appellee is entitled
to rely on the content of an appellant’s brief for the scope
of the issues appealed.” Access Now, Inc. v. Sw. Airlines
Co., 385 F.3d 1324, 1330 (11th Cir. 2004) (quoting Pignons
S.A. de Mecanique v. Polaroid Corp., 701 F.2d 1, 3 (1st Cir.
1983)); accord Haralson, 813 F.2d at 373 n.3. That Regions
thought the obligors raised counterclaim 11 in their brief—

even as it concluded that they had abandoned other claims—
suggests that the obligors’ brief gave Regions fair notice that
counterclaim 11 was an issue.
To be sure, an appellee’s assertions about what is or is not
abandoned do not bind us. Claims of abandonment may often
be overstated; in this appeal, we are not sure we agree with
Regions that Lisa Phoenix has abandoned counterclaim 12.
And there are many reasons why appellees may fail to raise
meritorious abandonment arguments. But the point remains:
that Regions understood the obligors’ brief to present a live
argument about counterclaim 11 and the general issue of
guarantor standing is surely evidence that it is reasonably
understood to do so.
Consider also that both amicus briefs—one by the Consumer
Financial Protection Bureau and one by five bankers
associations—fully briefed the issue of Lisa Phoenix’s
guarantor standing under the Act. Neither brief ever
hinted at the possibility that Lisa Phoenix abandoned her
counterclaims. That all of the amici, like Regions, consider
Lisa Phoenix to have adequately raised the issue of her
statutory standing reinforces our conclusion that Lisa Phoenix
did not abandon her argument about counterclaims 11 and 12.
Our dissenting colleague’s contention that Lisa Phoenix has
abandoned her counterclaims turns on her reading—which
we respectfully submit is an overreading—of three sentences
in the obligors’ brief, each of which seems to suggest that
the Equal Credit Opportunity Act claim on appeal is that
Regions violated the Act when it allegedly demanded that
Lisa Phoenix guarantee the Outsource loan. See Dissenting
Op. at 1202. The obligors’ statement of the issues presents
the question, “Does a wife who refuses to collateralize
loans or guaranty her husband’s unsecured business debt
have Equal Credit Opportunity Act (ECOA) standing as an
‘applicant’ ... ?” Initial Br. of Appellants at 1 (emphasis
added). Then, in their argument section, the obligors protest
that excluding guarantors from the definition of “applicant”
“gives lenders an untethered license to require spouses to
collateralize and sign for their husbands’ loans with *1200
impunity,” and they contend that Lisa Phoenix was required
“to sign for and collateralize her husband’s business debts.”
Id. at 30, 32 (emphases added). As the dissent sees it, these
phrases can mean only that Lisa Phoenix has replaced her
counterclaims based on the Periwinkle claim with a wholly
novel claim based on Regions’ alleged demand that she
guarantee the Outsource loan, even though the obligors never
pleaded such a claim in the district court and no such claim

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

10

11a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

is concerned in the judgment on appeal, and even though it
would be nonsensical for Lisa Phoenix to assert guarantor
standing with respect to a loan she never guaranteed.
Although we certainly agree that the obligors’ brief is no
model of clarity, we do not think that its references to the
Outsource loan nullify Lisa Phoenix’s challenge to the ground
on which her counterclaims were dismissed. In the obligors’
telling of the facts, Regions demanded that Lisa Phoenix
collateralize the Outsource loan, she refused, and Regions
punished her refusal by declaring falsely that the Periwinkle
loan was in default. We read the phrases on which the dissent
leans as highlighting the crucial narrative role of Regions’
demand and Lisa Phoenix’s refusal in the obligors’ version of
the facts, not as obliterating her legal theory. And we do not
see how we can read them any other way without violating the
rule that “briefs should be read liberally to ascertain the issues
raised on appeal.” Swann, 27 F.3d at 1542. The abandonment
rule would swell to a scope previously unimagined if we were
to hold that an appellant abandons her legal theory whenever
she places undue emphasis on one part of her factual narrative
over another. We conclude that Lisa Phoenix has preserved
at least one of her counterclaims under the Equal Credit
Opportunity Act and that the issue of guarantor standing is
before us. And, for the reasons we have explained, we hold
that the district court correctly granted summary judgment
against those counterclaims because a guarantor is not an
“applicant” for credit under the Act.

ROSENBAUM, Circuit Judge, concurring in part and
dissenting in part:
Today we opine on an issue that Appellants Lisa Phoenix
and Periwinkle Partners LLC (“Periwinkle”) never raised
on appeal. Courts have noted that deciding an issue no
appellant raised is generally unwise. But the Majority Opinion
nevertheless insists that we do so. And in following this
course, it purports to constrict the Equal Credit Opportunity
Act (“ECOA”) to preclude it from accomplishing one of
its primary remedial goals: disentangling spouses’ financial
intertwinement when such intertwinement is not necessary. I
therefore feel it necessary to explain the problems with the
Majority Opinion’s analysis.
*1201 Section I of this dissent demonstrates that no claim is
properly before us on appeal. And Section II responds to the
Majority Opinion’s incorrect conclusion that guarantors lack
standing as “applicants” under the ECOA.

I.
At different points in this litigation, DefendantsCounterclaimants-Appellants Lisa Phoenix and Periwinkle
have arguably raised two ECOA claims possibly relevant to
this appeal. 1 Each claim involves a separate Regions Bank
loan.
1

B. The Amended Judgment Must Be Corrected on Remand.
The amended judgment states “that Regions Bank is entitled
to recover $540,054.24 from Defendants for the Legal
Outsource loan.” As both parties agreed at oral argument, the
counts regarding the Legal Outsource loan name only Charles
Phoenix and Legal Outsource as defendants, so the judgment
erroneously states that Lisa Phoenix and Periwinkle Partners
are also liable for the Outsource loan. We remand with
instructions to correct the judgment to state that only Charles
Phoenix and Legal Outsource are liable for the damages owed
for the default of the Outsource loan.

IV. CONCLUSION
We AFFIRM the summary judgment in favor of Regions, and
we REMAND with instructions to correct the judgment.

The other Defendants-Counterclaimants-Appellants’
claims are not relevant to the ECOA analysis the
Majority Opinion has chosen to conduct, so I do not
address them here.

The Majority Opinion construes the claim on appeal to
concern a loan Regions made to Periwinkle, a company Lisa
Phoenix indirectly owns. As the Majority Opinion interprets
this claim, Lisa Phoenix invokes the ECOA to contest
Regions’s demand that her husband, Charles Phoenix, and his
law firm, Legal Outsource PA, guaranty the Periwinkle loan
(“Periwinkle Loan Claim”).
The second potential ECOA claim possibly relevant on this
appeal involves a loan Regions made to Legal Outsource.
Under this potential claim, Lisa 2 asserts that Regions
violated the ECOA when it required her (through her
company Periwinkle) to guaranty a loan it had made to
her husband Charles’s business, Legal Outsource (“Legal
Outsource Loan Claim”).

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

11

12a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

2

To avoid confusion, I refer to Charles and Lisa Phoenix
by their first names.

But neither the Periwinkle Loan Claim nor the Legal
Outsource Loan Claim is properly presented on appeal.
To understand why, it makes sense to start by looking
at the sole ECOA claim Lisa identified in the issues
she presented on appeal: “Does a wife who refuses to
collateralize loans or guaranty her husband’s unsecured
business debt have [ECOA] standing as an ‘applicant’ to sue
if the lender then forces over a dozen technical defaults as
pretense to falsely accelerate and foreclose on her separate
secured loan?” Appellants’ Br. at 1 (emphasis added). This
language unambiguously seeks to assert Lisa’s status as an
“applicant” on the Legal Outsource Loan Claim, as a result
of Periwinkle’s legal status as a guarantor for that loan,
since only the Legal Outsource Loan Claim involved an
alleged demand by Regions to guaranty Lisa’s husband’s
business debt. The language of the issue as Lisa has phrased
it on appeal does not implicate the Periwinkle Loan Claim,
since that was a loan involving Lisa’s own business, not her
husband’s business.
Lisa’s actual argument in support of her ECOA claim also
leaves no doubt that she challenges only Regions’s demand
that she (through her company Periwinkle) guaranty her
husband’s Legal Outsource Loan. Her argument is short;
it’s less than three pages. But in that space she repeatedly
argues that Regions violated the ECOA by trying to make
her guaranty her husband’s loans. Appellants’ Br. at 30, 32.
Unfortunately for Lisa, though, she did not raise the Legal
Outsource Loan Claim in the district court.
As for the Periwinkle Loan Claim, Lisa never once argues it
in this appeal. True, the loan to Periwinkle comes up in her
briefs, but only in the context of arguments that the Majority
Opinion (correctly) decides are meritless, if not “frivolous.”
Maj. Op. at 1189. Significantly, she never argues that the
district court was wrong in finding she lacked standing as a
guarantor to contest the Periwinkle Loan Claim.
So what exactly is properly on appeal?
*1202 Nothing.
We have repeatedly explained that “[a]ny issue that an
appellant wants the Court to address should be specifically
and clearly identified in the brief.” Access Now, Inc. v. Sw.

Airlines Co., 385 F.3d 1324, 1330 (11th Cir. 2004). 3 Not
only that, but “[a] party fails to adequately brief a claim when
he does not plainly and prominently raise it, for instance
by devoting a discrete section of his argument to those
claims.” Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d 678,
681 (11th Cir. 2014) (citation and internal quotation marks
omitted). When that happens, “the issue—even if properly
preserved at trial—will be considered abandoned.” Access
Now, 385 F.3d at 1330 (citation and internal quotation marks
omitted).
3

The Federal Rules of Appellate Procedure similarly
require an appellant’s brief to “contain, under appropriate
headings and in the order indicated ... a statement of the
issues presented for review.” Fed. R. App. P. 28(a)(5).

Here, Lisa’s briefs certainly do not “plainly and prominently
raise” her Periwinkle Loan Claim. For starters, her opening
brief does not “devot[e] a discrete section of [the] argument”
to it. In fact, as I have noted, it does not even identify the claim
in an issue on appeal or ever expressly mention the Periwinkle
Loan Claim in its ECOA arguments. And her reply brief does
not address the issue at all.
Nor, contrary to the Majority Opinion’s suggestion, does
Lisa’s mention of the district court’s reliance on Hawkins v.
Community Bank of Raymore, 761 F.3d 937 (8th Cir. 2014),
aff’d by an equally divided Court, ––– U.S. ––––, 136 S. Ct.
1072, 194 L.Ed.2d 163 (2016), justify the Majority Opinion’s
determination of an issue that Lisa did not raise on appeal.
To be sure, the district court did invoke Hawkins to dismiss
counterclaims relating to the Periwinkle Loan Claim. Maj.
Op. at 1197–98. But Lisa’s brief leaves no doubt that she
raised the district court’s reliance on Hawkins for only an
altogether different and unrelated point: she cited the district
court’s mention of Hawkins solely to support her argument
concerning the Legal Outsource Claim. 4
4

Lest there be any question about what Lisa argued on
appeal, I have included as an appendix to this opinion the
statement of issues from Lisa’s opening brief, as well as
the entirety of her ECOA argument.

In fact, in the very next paragraph following the general
reference to Hawkins the Majority Opinion cites, see Maj. Op.
at 1197–98, Lisa characterized Hawkins as “grant[ing] lenders
an untethered license to require spouses to collateralize and
sign for their husbands’ loans with impunity.” Appellants’
Br. at 30 (emphasis added). And while Lisa argued that she
and Periwinkle “fall squarely within ECOA’s protections,”

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

12

13a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

Maj. Op. at 1198 (quoting Appellants’ Br. at 32), she
made clear that she meant that the ECOA protected her
(through her ownership of Periwinkle) and Periwinkle as
guarantors of the Legal Outsource Loan: she said that
“Regions required [her through Periwinkle] to sign for and
collateralize her husband’s business debts hence violating
ECOA prohibitions.” Appellants’ Br. at 32 (emphasis added).
There’s no doubt that Lisa argued that guarantors have
standing under the ECOA, but her brief makes clear that she
made this argument in the context of the Legal Outsource
Loan Claim—that is, that under the ECOA, Regions could not
require her individually or through her company to guarantee
her husband’s company Legal Outsource’s loan. But as I have
noted, the problem with that argument is Lisa never raised it
in the district court.
*1203 As for the Periwinkle Loan Claim she did raise in the
district court, the most we can say about that is that Lisa’s brief
on appeal nakedly cites her Counterclaim 11, which in turn,
alleged the Periwinkle Loan Claim in the district court. But
significantly, Lisa’s brief cites Counterclaim 11 in the context
of arguing the Legal Outsource Loan Claim, in an apparent
effort to suggest that the Legal Outsource Loan Claim was
properly raised in the district court. (It was not.)
And even if we ignore the context of the citations to
Counterclaim 11, (literally) bare citations alone do not
preserve an argument on appeal. We have found abandonment
when litigants have done more to preserve their claims, such
as “when [at least] passing references appear in the argument
section of an opening brief,” and when “they are buried
within ... arguments.” Sapuppo, 739 F.3d at 682. As this
Court has recently “remind[ed] the ... bar[,] ... specific factual
and legal argumentation at every stage of ... proceedings” is
“importan[t]” to preserving issues on appeal. United States
v. Corbett, 921 F.3d 1032, 1043 (11th Cir. 2019) (W. Pryor,
Newsom, Vratil, JJ.). 5 So under our unequivocal precedent,
Lisa’s briefing indisputably abandoned the Periwinkle Loan
Claim.
5

Indeed, this Court has consistently enforced the
abandonment rule. See, e.g., Quality Auto Painting Ctr.
of Roselle, Inc. v. State Farm Indem. Co., 917 F.3d 1249,
1259 n.9 (11th Cir. 2019) (en banc); Nance v. Warden,
Ga. Diagnostic Prison, 922 F.3d 1298, 1302 n.2 (11th
Cir. 2019) (Tjoflat, E. Carnes, W. Pryor, JJ.); HornsbyCulpepper v. Ware, 906 F.3d 1302, 1306 n.1 (11th Cir.
2018) (W. Pryor, Branch, Anderson, JJ.); United States

v. Wenxia Man, 891 F.3d 1253, 1275 (11th Cir. 2018)
(W. Pryor, J. Pryor, Black, JJ.); Feldman v. Am. Dawn,
Inc., 849 F.3d 1333, 1345 (11th Cir. 2017) (W. Pryor,
Jordan, Baldock, JJ.); United States v. Stein, 846 F.3d
1135, 1151 n.15 (11th Cir. 2017) (W. Pryor, J. Pryor,
Story, JJ.); Jeune v. U.S. Att’y Gen., 810 F.3d 792,
797 n.2 (11th Cir. 2016) (W. Pryor, J. Carnes, Siler,
JJ.); Sorrels v. NCL (Bah.) Ltd., 796 F.3d 1275, 1283
(11th Cir. 2015) (W. Pryor, Jordan, Jones, JJ.); In re
McFarland, 790 F.3d 1182, 1191 n.10 (11th Cir. 2015)
(Tjoflat, W. Pryor, Baldock, JJ.); Perez v. U.S. Bureau
of Citizenship & Immigration Servs., 774 F.3d 960,
964 (11th Cir. 2014) (per curiam) (Marcus, W. Pryor,
Fay, JJ.). But puzzlingly, today, the Majority Opinion
selectively applies the abandonment rule to correctly
decline ruling on whether a corporation can be an
“applicant” under the ECOA, since “the obligors briefly
mention Periwinkle’s counterclaim in their argument
about the Equal Credit Opportunity Act, [but] they have
failed to argue or cite caselaw in either the district court
or on appeal to rebut the conclusion that its status as
an entity defeats its claim, as the district court ruled ...”
Maj. Op. at 1189. Yet the Majority Opinion incorrectly
stretches to “resolve” a specific claim Lisa does not even
raise at all in her briefs on appeal—whether Lisa may
rely on the ECOA to contest Regions’s demand that her
husband, Charles, and his law firm, Legal Outsource PA,
guaranty the loan to Periwinkle.

Lisa’s counsel likewise did not raise the Periwinkle Loan
Claim issue at all during his initial oral argument. And
during his rebuttal, while Lisa’s counsel briefly addressed
the “ECOA issue,” he argued only that Lisa had raised a
triable issue of fact that Regions had required Lisa “to provide
collateral for her husband’s loan.” Oral Argument at 24:04,
24:25, Regions Bank v. Legal Outsource PA, et al. (No.
17-11736),
http://www.ca11.uscourts.gov/oral-argumentrecordings?
title=17-11736&field_oar_case_name_value=&field_oral_argument_date_value
%5Bvalue%5D%5Byear
%5D=&field_oral_argument_date_value%5Bvalue%5D
%5Bmonth%5D= (“Oral Argument”).
The only time during this appeal that either party raised Lisa’s
role as a guarantor of the Periwinkle Loan was in Regions’s
opposition brief. Appellee’s Br. at 39–42. According to the
Majority Opinion, this makes the argument fair game. Maj.
Op. at 1198–99. But here’s the problem: Lisa never took the
bait. She didn’t adopt *1204 Regions’s characterization of
her argument. She didn’t respond to Regions’s argument in
her reply brief. Her counsel did not agree with it during oral
argument. And by the time Regions’s counsel got to oral

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

13

14a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

argument, Regions argued—over no claim to the contrary—
6

that Lisa had abandoned the Periwinkle Loan Claim. So on
appeal, no one ever argued in favor of Lisa and Periwinkle’s
position on the Periwinkle Loan Claim.
6

See Oral Argument at 13:48 (“If you look at the
counterclaim that was brought before the district court
and what has been argued here in the briefs, it’s [a]
completely different factual situation. They haven’t
even advanced the right argument in our position. ...”)
(emphasis added), 18:02 (“[T]hey’re arguing that there
was discrimination because when the Legal Outsource
loan matured and Regions Bank said we can’t extend
the maturity on this because Legal Outsource is defunct,
it’s not credit-worthy, you need to provide an additional
source of repayment collateral—something to that effect
—they’re saying in the brief, which they never raised
in front of Judge Magnuson, that that is the ECOA
violation.”) (emphasis added).

To recap, Lisa never argued in her opening brief that she
had standing as a guarantor to challenge the loan made to
Periwinkle. Regions raised that argument in its opposition
brief, but Lisa did not respond to it in her reply brief. Lisa’s
counsel did not raise the argument during oral argument.
Regions’s counsel then argued that Lisa had abandoned this
argument. And Lisa’s counsel never disputed this. It’s not on
appeal.
Perhaps for this reason, the Majority Opinion introduces the
novel suggestion that amici can decide what issues are before
us. Maj. Op. at 1199–1200. Amici frequently provide valuable
insight to the court by “supplementing the efforts of private
counsel and by drawing the court’s attention to law that
might otherwise escape consideration[.]” Shoemaker v. City
of Howell, 795 F.3d 553, 562 (6th Cir. 2015) (quoting 3-28
Moore’s Manual—Federal Practice and Procedure § 28.84
(2014)). We are grateful for their contribution. But we don’t
let them select the issues. 7 See Cellnet Commc’ns, Inc. v.
F.C.C., 149 F.3d 429, 443 (6th Cir. 1998) (“To the extent that
the amicus raises issues or make[s] arguments that exceed
those properly raised by the parties, we may not consider such
issues.”).
7

And besides, the Majority Opinion is wrong when it
suggests that the amicus briefs support its conclusion that
Appellants raised the ECOA standing issue in the context
of the Periwinkle Loan claim. See Maj. Op. at 31–32.
On the contrary, the banking associations’ amicus brief
plainly understood Appellants to have raised the ECOA

standing issue as it relates to only the Legal Outsource
Loan Claim on appeal. Their brief describes the issue
Appellants raise as follows: “Appellants incorrectly
argue that the Equal Credit Opportunity Act affords
‘Lisa Phoenix and Perwinkle [sic] [Partners, LLC]’ a
claim that Regions [Bank] required them to sign for and
collateralize her husband’s business debts[.]” Bankers’
Br. at 10 (emphasis added) (alterations in original).
Clearly, this pertains to only the Legal Outsource Loan
Claim on appeal. It does not reference the Periwinkle
Loan Claim. To be sure, the Bankers briefed the issue
of whether a guarantor has standing, but according
to their own words, they did so in the context of
the Legal Outsource Loan Claim because that’s what
they understood Appellants to argue in their brief. The
Bankers obviously did not understand Appellants to raise
the guarantor-standing issue as it relates to the Periwinkle
Loan Claim. For good reason: on appeal, Appellants
never argued that issue in the context of the Periwinkle
Loan Claim. As for the other amicus brief, submitted
by the Consumer Financial Protection Bureau, it focused
on what it disagreed with in the district court’s opinion,
as opposed to characterizing Appellants’ argument on
appeal.

Other courts have identified only very limited circumstances
warranting a court’s decision to overlook abandonment of
an *1205 argument or issue and decide it, anyway. None
applies here.
In Silber v. United States, 370 U.S. 717, 717–18, 82 S.Ct.
1287, 8 L.Ed.2d 798 (1962), for example, the Supreme
Court explained that when a party fails to raise an issue
on appeal, courts “[i]n exceptional circumstances, especially
in criminal cases, ...in the public interest, may, of their
own motion, notice errors to which no exception has been
taken, if the errors are obvious, or if they otherwise seriously
affect the fairness, integrity, or public reputation of judicial
proceedings.” (emphasis added) (citation and quotation
marks omitted). The Majority Opinion has offered no reason
why this case presents “exceptional circumstances,” and I am
aware of no such reason. This is also not a criminal case.
Nor, in light of the fact that the Supreme Court recently split
4-4 on the issue the Majority insists on addressing today,
Hawkins, 136 S. Ct. at 1072, and other circuits are similarly
split two to one, can we say the answer to the unraised
issue is “obvious.” And finally, since the Majority Opinion’s
answer to the unraised issue results in precisely the same
outcome as declaring the issue abandoned—either way, the
district court is affirmed—I can see no way that the unraised
issue “seriously affect[s]”—or, for that matter, affects at all

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

14

15a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

—“the fairness, integrity, or public reputation of judicial
proceedings.”
Other Circuits have also identified extremely limited
circumstances in which it might be appropriate for an
appellate court to address an issue that no party raised.
These other Circuits have reasoned that a court may
determine an unraised issue where doing so would “enhanc[e]
the efficiency of the decisionmaking process and the
conservation of scarce judicial resources,” and “remand
‘would further postpone the ultimate resolution of’ the
petitioner’s underlying claim for relief.” United States v.
Holness, 706 F.3d 579, 592 (4th Cir. 2013) (quoting LaBruna
v. U.S. Marshal, 665 F.2d 439, 442 (2d Cir. 1981)). Similarly,
the Seventh Circuit has concluded it is appropriate to
review an unraised issue only when these controlling factors
decidedly favor review: the size and complexity of the record,
the certainty of the resolution of the issue, and the need for
“protracted, costly, and ultimately futile proceedings in the
district court,” in the absence of addressing the forfeited issue.
United States v. Giovannetti, 928 F.2d 225, 227 (7th Cir.
1991).
Of course, not one of these circumstances describes this
case. The record here is not particularly lengthy or complex;
resolution of the issue here, as I have noted, is not cut and
dry; and declining to reach the issue would not “result in
protracted, costly, and ultimately futile proceedings in the
district court.” Id. Whether we address the unraised issue
or not, the result is the same: affirmance of the district
court’s order granting summary judgment to Regions. In fact,
ironically, deciding the unraised issue here makes today’s
opinion unnecessarily lengthy and complex. So it should go
without saying that this case does not present an appropriate
vehicle to justify a wholly unnecessary journey into the
deeply debated question of whether “guarantors” can be
“applicants,” when the claim as resolved by the Majority
Opinion should be dismissed, regardless, since it was clearly
abandoned.
Apparently recognizing the inadvisability of determining an
issue no Appellant invoked and failing to convince even itself
that Appellants have raised the Periwinkle Loan Claim on
appeal, the Majority Opinion tries a different tack and insists
that Appellants’ Legal Outsource Loan Claim arguments
“logically ... can relate only” to Counterclaims 11 or 12 (Lisa’s
individual claim as a guarantor of the Periwinkle loan). Maj.
Op. at 1198. At the risk of *1206 repetition but for the
avoidance of doubt, I offer a simpler explanation: on appeal,

Lisa, for the first time in this case, has raised a new claim
about Regions’s attempt to make her (through Periwinkle)
guaranty the Legal Outsource Loan. She did not plead the
claim in her Counterclaims—including Counterclaims 11 or
12—and she did not otherwise sufficiently develop it in the
district court.
Perhaps it was “nonsensical” for Lisa to raise the Legal
Outsource Loan Claim at this point, Maj. Op. at 1200,
but that was her prerogative, not ours. Our task here is to
“decide ... [the] questions presented by the parties.” Greenlaw
v. United States, 554 U.S. 237, 244, 128 S.Ct. 2559, 171
L.Ed.2d 399 (2008) (citation and quotation marks omitted).
Our responsibility to construe briefs “liberally” does not grant
us permission to recast what was appealed simply because
we want to reach an issue that the parties left behind. See
Nat’l Aeronautics and Space Admin. v. Nelson, 562 U.S.
134, 147 n.10, 131 S.Ct. 746, 178 L.Ed.2d 667 (2011) (“The
premise of our adversarial system is that appellate courts do
not sit as self-directed boards of legal inquiry and research,
but essentially as arbiters of legal questions presented and
argued by the parties before them.”) (quoting Carducci v.
Regan, 714 F.2d 171, 177 (D.C. Cir. 1983) (opinion for the
court by Scalia, J.)); Greenlaw, 554 U.S. at 243, 128 S.Ct.
2559 (“In our adversary system ... we rely on the parties to
frame the issues for decision and assign to courts the role of
neutral arbiter of matters the parties present.”).
As for the Legal Outsource Loan Claim, this is hardly the first
time a litigant has tried to raise a “wholly novel claim” for the
first time on appeal. Maj. Op. at 1200. When that happens, it
has long been this Court’s practice to refuse to consider the
issue. See In re Holywell Corp., 874 F.2d 780, 782 (11th Cir.
1989) (refusing to consider claim that was not presented to
the district court); Troxler v. Owens-Illinois, Inc., 717 F.2d
530, 532 (11th Cir. 1983) (refusing to consider affirmative
defense raised for the first time on appeal); see also Access
Now, 385 F.3d at 1331 (“[W]e review claims of judicial error
in the trial courts. If we were to regularly address questions
—particularly fact-bound issues—that districts court never
had a chance to examine, we would not only waste our
resources, but also deviate from the essential nature, purpose,
and competence of an appellate court.”).
Because Lisa raises the Legal Outsource Loan Claim for the
first time on appeal, the better course would be to forgo
considering it at this late hour. Access Now, 385 F.3d at
1330–35. We can, however, make exceptions to our general
prohibition against considering new claims for the first time

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

15

16a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

on appeal if one of our limited exceptions to the rule applies. 8
See id. at 1332. The only exception that could even possibly
pertain here allows us to evaluate a new issue for the first
time on appeal “if that issue presents significant questions of
general impact or of great public concern.” Id. at 1332.
8

We have explained that we may consider an issue raised
for the first time on appeal (1) “if it involves a pure
question of law, and if refusal to consider it would result
in a miscarriage of justice”; (2) if “the appellant raises
an objection to an order which he had no opportunity
to raise at the district court level”; (3) if “the interest
of substantial justice is at stake”; (4) if “the proper
resolution is beyond any doubt”; or (5) “if that issue
presents significant questions of general impact or of
great public concern.” Access Now, 385 F.3d at 1332.

Perhaps we could rely on that exception to consider whether
guarantors are considered “applicants” under the ECOA in
the context of Lisa’s contentions arising out of the Legal
Outsource Loan Claim. But if we *1207 are going to do that,
we should say so and explain why the exception applies.
Unfortunately, though, that’s not what the Majority Opinion
does. Instead, inexplicably, it simply considers whether
guarantors have standing under the ECOA, in the context
of “resolving” the Periwinkle Loan Claim, ignoring Lisa’s
abandonment of that claim on appeal and Regions’s argument
that Lisa has forsaken that claim for good by not appealing
it. Because Lisa opted not to present the Periwinkle Loan
Claim to us on appeal, it should be clear that that claim leaves
nothing to be “resolved.”

II.
Nevertheless, because the Majority Opinion purports to
improperly narrow the ECOA, I must explain why its
reasoning is wrong. I begin by setting forth the framework
we apply to the question the Majority Opinion has chosen to
address: whether guarantors are included within the meaning
of “applicants” under the ECOA.
Since we are construing the meaning of a statute, we must start
with the text. Robinson v. Shell Oil Co., 519 U.S. 337, 340,
117 S.Ct. 843, 136 L.Ed.2d 808 (1997). We consider whether
the text plainly and unambiguously answers the particular
question at issue. Id. In assessing the text, we keep in mind
that “[a] word in a statute may or may not extend to the outer
limits of its definitional possibilities.” Dolan v. U.S. Postal

Serv., 546 U.S. 481, 486, 126 S.Ct. 1252, 163 L.Ed.2d 1079
(2006). To determine the proper meaning, we evaluate “the
whole statutory text, considering the purpose and context of
the statute, and consult[ ] any precedents or authorities that
inform the analysis.” Id.; see also Crandon v. United States,
494 U.S. 152, 158, 110 S.Ct. 997, 108 L.Ed.2d 132 (1990)
(“In determining the meaning of the statute, we look not
only to the particular statutory language, but to the design
of the statute as a whole and to its object and policy.”).
And when a statute is remedial in nature, we apply the wellestablished rule that requires us to construe the text “broadly
to effectuate its purposes.” Tcherepnin v. Knight, 389 U.S.
332, 336, 88 S.Ct. 548, 19 L.Ed.2d 564 (1967); Stewart v.
Kahn, 78 U.S. 11 Wall. 493, 504, 20 L.Ed. 176 (1870); SEC
v. Levin, 849 F.3d 995, 1001 (11th Cir. 2017) (observing
that remedial legislation “is entitled to a broad construction”)
(citations omitted). If, after we apply these rules, the text is
unambiguous, yielding but a single possible answer to the
question at issue, our analysis ends. For we “must give effect
to the unambiguously expressed intent of Congress.” Cadet
v. Bulger, 377 F.3d 1173, 1185 (11th Cir. 2004) (citation and
quotation marks omitted).
But if the text does not unambiguously answer the precise
question we are examining, we must conduct an analysis
under Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837, 104 S.Ct. 2778, 81 L.Ed.2d 694 (1984). Under
Chevron, we determine whether the agency charged with
filling in the ECOA’s gaps—originally the Federal Reserve
Board but beginning in 2010, the Consumer Financial
Protection Bureau 9 —has established a permissible answer
to our question. The agency’s interpretation is permissible if
it is “reasonable.” *1208 Id. at 844, 104 S.Ct. 2778. And
we must defer to an agency’s reasonable construction of a
statute for which that agency enjoys rulemaking authority. Id.
If, on the other hand, the agency’s interpretation of the statute
as it concerns the precise issue in controversy is “arbitrary,
capricious, or manifestly contrary to the statute,” the agency’s
answer is entitled to no weight. Id.
9

In 2010, Congress transferred the Federal Reserve’s
rulemaking authority to the Consumer Financial
Protection Bureau. 15 U.S.C. 1691b(a). The Bureau
has since repromulgated Regulation B without making
material changes. 12 C.F.R. Pt. 1002 & Supp. I; see Equal
Credit Opportunity (Regulation B), 76 Fed. Reg. 79,442
(Dec. 21, 2011). Because Regulation B has remained
materially the same since its original promulgation by the
Federal Reserve, to avoid confusion, for the remainder

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

16

17a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256
of this opinion, I refer solely to the Federal Reserve as
the administering body.

With this framework in mind, I consider whether a guarantor
qualifies as an “applicant” under the ECOA. I divide my
discussion into three parts. In accordance with the Supreme
Court’s guidance for construing statutory text, see Dolan,
546 U.S. at 486, 126 S.Ct. 1252, and because the ECOA
has “broad remedial goals,” Barney v. Holzer Clinic, Ltd.,
110 F.3d 1207, 1211 n.6 (6th Cir. 1997), Section A reviews
the background, purpose, and broader context of the ECOA
as a whole. Cf. Zuni Pub. Sch. Dist. No.89 v. Dep’t of
Educ., 550 U.S. 81, 89–90, 127 S.Ct. 1534, 167 L.Ed.2d
449 (2007) (departing from usual order of analysis for
purposes of exposition). Section B examines the statutory
text. And Section C considers the Federal Reserve’s approach
to answering the question of whether a guarantor qualifies as
an “applicant” under the ECOA.

A.
Women were integral to the United States’s World War
II triumph through, among other ways, their efforts in
10

the workforce.
Buoyed by their experiences during the
War, women helped detonate America’s historic Post-War
economic boom by flocking to workplaces in unprecedented
droves.
10

11

11

Jone Johnson Lewis, Women and World War II:
Women at Work, ThoughtCo, Mar. 5, 2019, available
at https://www.thoughtco.com/world-war-ii-women-atwork-3530690 (last visited Aug. 27, 2019).
Howard N. Fullerton, Jr., Labor Force Participation: 75
Years of Change, 1950-98 and 1998-2025, Monthly Lab.
Rev. 3 (Dec. 1999), available at http://www.bls.gov/
mlr/1999/12/art1full.pdf (last visited Aug. 27, 2019).

But significant impediments to women’s economic parity
nonetheless persisted. A particularly important obstacle
involved credit availability: creditors would not lend to
women so they could start their own businesses or buy their
own homes because creditors refused to consider women’s
applications on par with men’s. And the increasing necessity
of credit to achieve economic security made this impediment
particularly restrictive. 12
12

Dubravka Ritter, Do We Still
Equal Credit Opportunity Act?,

Need the
Fed. Res.

Bank
of
Phila.
(Sept.
2012),
available
at https://www.philadelphiafed.org/-/media/consumerfinanceinstitute/payment-cards-center/publications/
discussion-papers/2012/d-2012-equal-creditopportunity-act.pdf?la=en (last visited Aug. 27, 2019).

That women faced rampant discrimination in accessing credit
was no secret. In fact, in the early 1970s, the then-President
of the American Bankers Association openly admitted that
banks “do in fact discriminate against women when it comes
to granting credit.” 13 And in 1972, the National Commission
on Consumer Finance found five systemic patterns of
gender-based credit discrimination: (1) single women had
more trouble obtaining credit than single men; (2) creditors
required women to reapply for credit upon marriage, usually
in the husband’s name; (3) creditors declined to extend credit
to a married woman in her own name; (4) creditors often
refused to count the wife’s income when the couple applied
for credit; and (5) women who divorced or widowed *1209
had trouble reestablishing credit since the accounts were in the
husband’s name. Nat’l Comm. On Consumer Fin., Consumer
Credit in the United States, 152–53 (1972).
13

Susan Smith Blakely, Credit Opportunity for Women:
The ECOA and Its Effects, 1981 Wis. L. Rev. 655, 657
(1981) (citation omitted).

So before marriage, regardless of a woman’s wealth
accumulation, creditors viewed women as poor credits risks
because they considered them “inherently unstable and
incapable of handling [their] own affairs ... and likely to
change [their] marital status.” Gail R. Reizenstein, A Fresh
Look at the Equal Credit Opportunity Act, 14 Akron L. Rev.
215, 226 (1980) (citation omitted) (“Fresh Look”). Many
creditors even demanded that women disclose the type of
birth control they relied upon. Credit Equality Comes to
Women: An Analysis of the Equal Credit Opportunity Act, 13
San Diego L. Rev. 960, 965 (1976). Some creditors took it
yet a step further by making women choose between babies
and credit by conditioning a woman’s credit approval on her
“swear ... that [she] would not endanger [her] ability to repay
[her] debt[ ] by having children.” Id. (citations omitted).
Getting married usually didn’t improve women’s lots in
credit markets because lenders often folded whatever credit
women had before marriage into their husbands’ credit. For
instance, after winning multiple Wimbledon championships
and supporting her household with those earnings, Billie Jean
King could not get a credit card in her own name; rather, she
had to apply in the name of her husband, who at that time, was
an unemployed law student. Gail Collins, When Everything

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

17

18a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

Changed: The Amazing Journey of American Women from
1960 to the Present, 182 (Little, Brown & Co. ed., 2014). And
bankers told the mayor of Davenport, Iowa, that they would
give her a credit card only if her husband would sign for it. Id.

Housing & Urban Affairs, S. Rep. No. 93–278, 93rd Cong.,
1st Sess. 16–17 (1973) (“Senate Rpt.”); see also Economic
Problems at 197; Credit Discrimination: Hearings Before
the Subcomm. on Consumer Affairs of the House Comm. on
Banking and Currency on H.R. 14856 and H.R. 14908, 93rd

This state of affairs created a paradox for women: they
couldn’t have their own credit during marriage, and if they
divorced or became widowed, lenders would deny their
applications because they lacked established credit of their
own. Economic Problems of Women: Hearings Before the
Joint Economic Committee, 93d Cong. 152, 1st Sess. (1973)
(“The irony of these credit practices is that when a woman is
divorced, separated, or widowed she often is denied credit by
these same credit companies on the grounds that she has no
established credit record.”) (Statement of U.S. Rep. Griffiths,
Member, Joint Econ. Comm.) (“Economic Problems”). And
many women started post-marriage life even worse off than
having no credit because lenders insisted on tying women’s
financial fortunes to those of their ex-husbands, and their
ex-husbands’ delinquent accounts often detracted from the
women’s credit scores even after the marriage ended. See
Fresh Look at 225.

Cong., 2d Sess. 315, 636 (1974). 15 Creditors operated under
the assumption that women were economically dependent
upon their husbands, even if in reality, the wife’s earnings
outpaced her husband’s. See Senate Rpt. at 17–18. Creditors
also usually altered a wife’s credit rating to match her
husband’s and frequently refused to give married women
separate accounts. See id. at 17.

This atmosphere evolved out of the wrong 14 but “widelyheld” presumptions that “probability of pregnancy, the
subsequent termination of employment upon childbirth, and
the general instability and inability of women to control
their personal affairs (especially single and divorced women)”
made women bad bets. Fresh Look at 216 (citation omitted).
14

Despite higher levels of unemployment than men at
the time, women were, in fact, better credit risks than
men, studies showed. A study commissioned in 1964
examined the possible correlation between consumer
credit risk and sex. It found that out of 8,795 credit
accounts established for single men, 176 defaulted
(2%); while among 4,337 accounts established for
single women, only 33 defaulted (0.75%). See Sharon
Thornton, The Not-So-Equal Credit Opportunity Act, 5
Orange Cty. B.J. 363, 366 (1978).

Eventually, Congress began to recognize the inequities of
tethering women’s economic prospects to their husbands
and the *1210 risks this discrimination posed to the new
economy. So in the early 1970s, Congress addressed the
problem.
Testimony before Congress established that at that time,
to obtain credit, women needed a higher salary and more
stable employment than men. See Senate Comm. On Banking,

15

During the hearings, one person relayed that an employee
of a credit institution had stated that it was “un-American
to count a woman’s income and that the only way a
woman’s income could be counted would be if she were
to have a hysterectomy.” Economic Problems at 192
(quotation marks omitted).

The congressional hearings culminated in the Senate
Subcommittee’s report that found thirteen different
“widespread” ways creditors discriminated on the basis of sex
and marital status:
(1) Women were held to different standards than men in
obtaining credit;
(2) Creditors generally required a woman upon marriage to
reapply for credit;
(3) Creditors often refused to extend credit to a married
woman in her own name;
(4) Creditors were usually unwilling to consider the wife’s
income when a married couple applied for credit;
(5) Women who had separated had a particularly difficult
time, since the accounts may still have been in the
husband’s name;
(6) Creditors arbitrarily refused to consider alimony and
child support as a valid source of income;
(7) Creditors applied stricter standards to married
applicants where the wife was the high earner;
(8) Creditors used information about women’s birthcontrol practices in evaluating credit applications;

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

18

19a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

(9) Creditors used information concerning the
creditworthiness of a spouse where an otherwisecreditworthy married person applied for credit;
(10) Creditors refused to issue separate accounts to married
persons;
(11) Creditors considered women dependent upon their
husbands even if the women were employed;
(12) Creditors used credit-scoring systems that applied
different values depending on sex or marital status; and
(13) Creditors altered women’s credit ratings to match their
husbands’ credit ratings.
Senate Rpt. at 16–17.
Against this background and in light of these findings,
Congress enacted the ECOA in 1974. In doing so, Congress
concluded sex and marital status “are, and must be, irrelevant
to a credit judgment.” Senate Rep. (Banking Hous. and Urban
Affairs Comm.), S. Rep. No. 94 – 589, 94th Cong., 2d Sess. 3
(1976), reprinted in 1976 U.S.C.C.A.N. 403, 405; see also 15
U.S.C. § 1691 (articulating the ECOA’s prohibition *1211
of credit discrimination based on gender or marital status).
So it is not surprising that the ECOA makes it “unlawful
for any creditor to discriminate against any applicant, with
respect to any aspect of a credit transaction [ ] on the basis of ...
sex or marital status. ...” 15 U.S.C. § 1691(a)(1). 16 Indeed,
the ECOA represents Congress’s resolve to “eradicate credit
discrimination waged against women, especially married
women whom creditors traditionally refused to consider for
individual credit,” Anderson v. United Fin. Co., 666 F.2d
1274, 1277 (9th Cir. 1982), and “to prevent loans from being
conditioned automatically on the securing of the signature of
the non-borrowing spouse,” Mayes v. Chrysler Credit Corp.,
167 F.3d 675, 676 (1st Cir. 1999).
16

In 1976, Congress extended the ECOA to bar creditors
from discriminating on the basis of race, color, religion
and national origin. See 15 U.S.C. § 1691(a); Ritter,
supra, at 2–3.

Against the crazy quilt of discriminatory practices creditors
were using at that time, Congress declined to spell out
each methodology or action that amounts to impermissible
discrimination. Instead, Congress rested on the ECOA’s broad
language and “entrust[ed] its construction to an agency

with the necessary experience and resources to monitor its
operation.” Mourning v. Family Publ’ns Serv., Inc., 411
U.S. 356, 365, 93 S.Ct. 1652, 36 L.Ed.2d 318 (1973).
Specifically, Congress delegated to the Federal Reserve the
task of adopting “classifications, differentiation, or other
provision[s],” that were, in the Federal Reserve’s judgment,
“necessary or proper to effectuate the [ECOA’s] purposes. ...”
15 U.S.C. § 1691b(a).
Shortly after Congress enacted the ECOA, the Federal
Reserve took the baton from Congress and promulgated
Regulation B to implement Congress’s directive to combat
sex- and marital-status-based credit discrimination. 12 C.F.R.
§ 202.1(b) (stating that the purpose of Regulation B is
“to promote the availability of credit to all creditworthy
applicants without regard to ... sex [or] marital status. ...”).
Included within Regulation B is the Spousal Guaranty Rule,
which generally prohibits creditors from treating married
people differently by requiring spouses to assume liability
for each other’s debt obligations. 12 C.F.R. 202.7(d); Equal
Credit Opportunity Final Rulemaking, 40 Fed. Reg. 49,308–
09 (Oct. 22, 1975). Therefore, ever since 1977, Regulation
B has prohibited creditors from obligating an individual to
guaranty her spouse’s debts.
Some courts, though, interpreted Regulation B to mean that
when a creditor violated the Spousal Guaranty Rule, the
only “applicant” who suffered discrimination was the primary
borrower, not the spouse who guaranteed the loan. See,
e.g., Morse v. Mut. Fed. Sav. & Loan Ass’n of Whitman,
536 F. Supp. 1271, 1278 (D. Mass. 1982). The Federal
Reserve recognized that this restrictive reading thwarted
one of the purposes of the ECOA—ensuring access to
an independent credit profile by detangling spouses’ credit
—since the guarantor spouse could be saddled with her
husband’s bad debt with no recourse under the ECOA.
So in 1985, the Federal Reserve expressly construed
the ECOA’s definition of “applicant”—“any person who
applies to a creditor directly for an extension, renewal, or
continuation of credit, or applies to a creditor indirectly by
use of an existing credit plan for an amount exceeding a
previously established credit limit,” 15 U.S.C. § 1691a(b)—to
include “guarantors, sureties, endorsers, and similar parties”
“[f]or purposes of” the Spousal Guaranty Rule. 12 C.F.R.
202.2(e). In doing so, the Federal Reserve emphasized that
it was not imposing any new obligations, since in *1212
accordance with the ECOA, Regulation B had long prohibited
creditors from requiring a guaranty from a borrower’s

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

19

20a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

spouse. Rather, the Federal Reserve explained, it was just
recognizing that the guarantor spouse also has standing when
the creditor straps the spouses’ credit fortunes together. Equal
Credit Opportunity; Revision of Regulation B; Official Staff
Commentary, 50 Fed. Reg. 48,018 (Nov. 20, 1985). 17
17

The Federal Reserve made Regulation B firm but
flexible. If a party is needed to support the loan
request because the potential debtor husband’s credit is
insufficient, the wife can guaranty the loan. Regulation
B just bars lenders from “requir[ing] that the spouse be
the additional party.” 12 C.F.R. 202.7(d)(5).

B.
We begin our analysis of whether the ECOA includes
guarantors within the definition of “applicants” by evaluating
the statutory text. The ECOA makes it “unlawful for any
creditor to discriminate against any applicant, with respect to
any aspect of a credit transaction [ ] on the basis of ... marital
status. ...” 15 U.S.C. § 1691(a)(1) (emphasis added). In turn,
the ECOA defines “applicant” as “any person who applies to a
creditor directly for an extension, renewal, or continuation of
credit, or applies to a creditor indirectly by use of an existing
credit plan for an amount exceeding a previously established
credit limit.” 15 U.S.C. § 1691a(b) (emphasis added).
Two aspects of this text immediately stand out.
First, Congress employed the word “any” four times in these
two sentences. The Supreme Court has explained that “the
word ‘any’ has an expansive meaning.” United States v.
Gonzales, 520 U.S. 1, 5, 117 S.Ct. 1032, 137 L.Ed.2d 132
(1997) (citation omitted). The Majority Opinion is correct that
the word “any” does not change the definition of the word it
modifies. Maj. Op. at 1193–94. But when that word appears
repeatedly over just a couple of sentences—here, four times
in two sentences—“it begins to seem that Congress meant
the statute to have expansive reach.” See United States v.
Clintwood Elkhorn Mining Co., 553 U.S. 1, 7, 128 S.Ct. 1511,
170 L.Ed.2d 392 (2008). 18
18

See also Dennis v. Higgins, 498 U.S. 439, 443, 111 S.Ct.
865, 112 L.Ed.2d 969 (1991) (“A broad construction
of § 1983 is compelled by the statutory language,
which speaks of deprivations of ‘any rights, privileges,
or immunities secured by the Constitution and laws.’
Accordingly, we have repeatedly held that the coverage

of [§ 1983] must be broadly construed.”) (citations and
quotation marks omitted).

This would be true for any statutory provision that abundantly
uses the word “any,” but it is especially so when dealing
with remedial legislation. Where Congress uses the term
“any” with a “lack of [accompanying] restrictive language,”
the Supreme Court has instructed us to “refuse[ ] to engraft
artificial limitations” that curb the “expansive remedial
purpose[s]” connoted by such language. Blue Shield of Va. v.
McCready, 457 U.S. 465, 472, 102 S.Ct. 2540, 73 L.Ed.2d
149 (1982); see id. (broadly construing “[a]ny person who
shall be injured in his business or property by reason of
anything forbidden in the antitrust laws”). So, for example,
the text’s prohibition against marital-status discrimination
“with respect to any aspect of a credit transaction,” 15 U.S.C.
§ 1691(a)(1) (emphasis added), purports to preclude maritalstatus discrimination in all aspects of credit transactions,
including against guarantors.
Nevertheless, and second, the statutory provisions do not
expressly answer the key question at issue here: must the
applicant request credit for herself or may she request *1213
it for somebody else? As the Sixth Circuit has noted, “the
applicant and the debtor are not always the same person.” RL
BB Acquisition, LLC v. Bridgemill Commons Dev. Grp., LLC,
754 F.3d 380, 385 (6th Cir. 2014). And the Majority Opinion’s
listed common dictionary definitions of “apply” do not limit
applicants to only the proposed debtor, because they do not
foreclose the scenario where an applicant makes a request for
credit on someone else’s behalf.
Similarly, both the Sixth and Eighth Circuits, in construing
the text at issue, have relied on common dictionary definitions
of “apply” as meaning “to make an appeal or request
especially formally and often in writing and usually for
something of benefit to oneself.” Hawkins, 761 F.3d at 941
(quoting Webster’s Third New Int’l Dictionary at 105 (2002))
(quotation marks and alterations omitted) (emphasis added);
RL BB Acquisition, 754 F.3d at 385 (quoting Webster’s Third
New Int’l Dictionary at 105 (1993) (cleaned up)); see also
Webster’s Third New Int’l Dictionary at 105 (1961) (same
definition, cleaned up). Obviously, if something is “usually
for something of benefit to oneself,” it must sometimes be for
something of benefit to another.
So we must consider whether a guarantor may ever
reasonably and naturally be viewed as requesting “something
of benefit” to another—that is, credit for the benefit of the

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

20

21a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

proposed debtor. As it turns out, under the plain meaning of
“guarantor,” she may.
As Corbin on Contracts explains, “In most cases of guaranty
contracts, the offer comes from the guarantor requesting the
giving of credit to a principal debtor. ...” See Timothy Murray,
Corbin on Contracts § 3.14, at 467 (rev. ed. 2018). 19 In fact,
a guaranty is typically enforceable only because, in exchange
for the creditor’s promise to extend credit to the debtor, the
guarantor promises to repay the loan if the primary debtor
defaults. See Restatement (Second) of Contracts § 71(2)
(1981). Thus, guaranty contracts would be unenforceable
absent the exchange of consideration by the guarantor—a
promise to repay—and the creditor—the fulfillment of the
guarantor’s “application” that it lends to the debtor. See
Restatement (Third) of Suretyship and Guaranty § 9, cmt. a
(1996); Joseph M. Perillo, Corbin on Corbin § 9.4, at 252–253
(rev. ed. 1996); see also United States v. Burgreen, 591 F.2d
291, 294 (5th Cir. 1979) (finding that guaranty was supported
by consideration through the loan to the primary borrower).
19

Additionally, other banking regulations provide that
guarantors request and receive extensions of credit. See,
e.g., 12 C.F.R. 215.3(a)(4).

The Majority Opinion charges that this definition of “apply”
falls outside the word’s natural meaning. Maj. Op. at 1194–
95. But there are three problems with the Majority Opinion’s
position.
First, in support of its argument, the Majority Opinion
inexplicably invites readers to consider an incongruous
hypothetical, arguing that parents who seek to bribe their
daughter’s way into college by offering to “make a large gift
if their daughter is admitted” are not “applicants.” Maj. Op.
at 1191–92. I agree. But nor are they analogous to guarantors.
Unlike the parents in the Majority Opinion’s hypothetical,
who can obtain admission for their daughter only by paying
a bribe to the college, a guarantor does not bribe or otherwise
pay the creditor for credit to be extended to another. And if the
eventual debtor pays back the credit, the guarantor will never
pay anything. So the Majority Opinion’s efforts to explain in
tangible terms why a guarantor cannot fall within the meaning
of “applicant” fail.
*1214 Second, none of the many definitions of the
word “apply” that the Majority Opinion cites excludes the
interpretation that the application was for someone else. Maj.
Op. at 1190–91. And that is significant to our analysis. In
Smith v. United States, 508 U.S. 223, 225, 113 S.Ct. 2050,

124 L.Ed.2d 138 (1993), for example, the Supreme Court
had to determine whether the exchange of a gun for narcotics
amounted to the “use” of a firearm “during and in relation to ...
[a] drug trafficking crime,” within the meaning of 18 U.S.C. §
924(c)(1). The Court rejected the petitioner’s request to apply
only the limited and most common meaning of the phrase.
Id. at 229, 113 S.Ct. 2050. Rather, the Court determined that
trading a firearm for drugs also qualified as “use” of the
firearm under the statute, explaining, “It is one thing to say
that the ordinary meaning of ‘uses a firearm’ includes using
a firearm as a weapon, since that is the intended purpose of a
firearm and the example of ‘use’ that most immediately comes
to mind. But it is quite another to conclude that, as a result,
the phrase also excludes any other use.” Id.
Applying Smith, we must conclude that the availability of
a frequently used definition of “applicant”—one who seeks
credit for herself—does not necessarily negate a less-common
definition—one who seeks credit for others. That is so
because the definitions of “applicant” do not exclude use of
the word to refer to guarantors.
And third, the ECOA is a remedial statute that we must
construe “broad[ly]” to effectuate its remedial goals. Barney,
110 F.3d at 1211 n.6; see also Levin, 849 F.3d at 1001
(observing that remedial legislation “is entitled to a broad
construction”); Morante-Navarro v. T&Y Pine Straw, Inc.,
350 F.3d 1163, 1166 (11th Cir. 2003) (construing the remedial
Migrant and Seasonal Agricultural Workers Protection Act
“broadly to effect its ... purpose”). Our task cannot begin
and end with a definitional popularity contest. If it did, there
would be no way to construe remedial legislation “broadly” to
effectuate its purpose, because all words in all statutes would
be read as conveying only a single potential meaning.
Notably, the Majority Opinion makes no attempt whatsoever
to reconcile the “familiar canon of statutory construction
that remedial legislation should be construed broadly to
effectuate its purposes,” Tcherepnin, 389 U.S. at 336, 88
S.Ct. 548, or the caveat that “[a] word in a statute may
or may not extend to the outer limits of its definitional
possibilities,” Dolan, 546 U.S. at 486, 126 S.Ct. 1252, with
the Majority Opinion’s the-words-can-have-only-a-singlemeaning mantra. 20 Of course, if either or both of these
doctrines apply, the Majority Opinion cannot be right.
20

As Judge William Pryor explained last year, “the text
must be construed as a whole. ... Strict construction
sequesters the words of a text from their context. That

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

21

22a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256
is one of the reasons why strict construction is foolish.”
Pictet Overseas Inc. v. Helvetia Trust, 905 F.3d 1183,
1190 (11th Cir. 2018) (William Pryor, J., concurring)
(cleaned up); see also Deal v. United States, 508 U.S.
129, 132, 113 S.Ct. 1993, 124 L.Ed.2d 44 (1993)
superseded by statute as stated in United States v. Davis,
––– U.S. ––––, 139 S. Ct. 2319, 2324 n.1, 204 L.Ed.2d
757 (2019) (it is a “fundamental principle of statutory
construction (and indeed, of language itself), that the
meaning of a word cannot be determined in isolation, but
must be drawn from the context in which it is used.”).
So we ought not to pluck words out of their context and
define them narrowly just because a dictionary indicates
that the narrower meaning is the more common one.

So instead of responding substantively, the Majority Opinion
asserts the Supreme Court has “rejected applying” the
remedial-purpose doctrine. Maj. Op. at 1195. And *1215
it has no answer at all to the Supreme Court’s instruction in
Dolan.
But while the Majority Opinion pulls colorful language from
context to suggest that the Supreme Court has determined that
the remedial-purpose doctrine is no longer good law, there’s
a problem with this response: the Supreme Court has not
rejected the doctrine. Rather, the Court concluded the doctrine
was simply inapplicable in the cases the Majority Opinion
cites.
For example, there were multiple reasons why the doctrine
would not apply to the Comprehensive Environmental
Response, Compensation, and Liability Act, the statute at
issue in CTS Corp. v. Waldburger, 573 U.S. 1, 134 S.Ct. 2175,
189 L.Ed.2d 62 (2014): (1) the Court held that the statute
“d[id] not provide a complete remedial framework,” and so
it was not necessarily a remedial statute, see id. at 18, 134
S.Ct. 2175; (2) even if it was a remedial statute, the statute’s
legislative history supported a construction of the statutory
text at odds with the remedial purpose, see id. at 14–17, 134
S.Ct. 2175; and (3) the statute, which would trump state law
if the Court adopted the respondents’ argument, was subject
to a competing presumption against preemption, see id. at 12,
134 S.Ct. 2175.
Likewise, the respondents in Inyo County v. Paiute-Shoshone
Indians of the Bishop Community of the Bishop Colony,
538 U.S. 701, 123 S.Ct. 1887, 155 L.Ed.2d 933 (2003),
argued that the Bishop Paiute Tribe should be considered a
“person” under 42 U.S.C. § 1983, a construction—according
to respondents—that would be consistent with the law’s
remedial purpose. See Paiute-Shoshone Indians, 538 U.S. at

710, 123 S.Ct. 1887. The Court rejected this bid, holding that
“Section 1983 was designed to secure private rights against
government encroachment, not to advance a sovereign’s
prerogative to withhold evidence relevant to a criminal
investigation.” See id. at 711–12, 123 S.Ct. 1887 (citation
omitted). So rather than rejecting the doctrine, the Court
disagreed that the statute was meant to remedy the harms that
the respondents addressed.
Norfolk Southern Railway Co. v. Sorrell, 549 U.S. 158, 127
S.Ct. 799, 166 L.Ed.2d 638 (2007), is similarly uninstructive
here. Norfolk involved the Federal Employers’ Liability Act
(“FELA”), which makes railroads liable to their employees
for injuries “resulting in whole or in part from the negligence”
of the railroad, 45 U.S.C. § 51. 549 U.S. at 160, 127
S.Ct. 799. In that case, the Court considered whether the
statute permitted different standards of causation for railroad
and employee contributory negligence. Id. Although the
Court recognized that FELA was “enacted to benefit railroad
employees” and that a more lenient standard of causation for
employee contributory negligence would favor employees, it
held that FELA required application of a single negligence
standard, stating that FELA’s “remedial purpose [does not]
require[ ] us to interpret every uncertainty in the Act in
favor of employees.” Id at 171, 127 S.Ct. 799. But what’s
important for this case is that the Court decided that the
“system of comparative fault” would not “work” if “the
basis of comparison [meaning the standard for contributory
negligence] [were not] the same.” Id. at 170, 171, 127 S.Ct.
799 (citations omitted). In other words, the Court left open the
possibility that the remedial-purpose doctrine would apply in
cases where the object of interpretation makes the difference
between accomplishing the statute’s central purposes at all
and not.
This is just such a case. First, unlike the situation with FELA
in Norfolk, construing “applicant” to include guarantors under
§ 1691(a)(1) does not prevent the ECOA’s mechanisms
from working. And *1216 unlike whether the contributory
negligence standard is the same for employees and employers
under the FELA—a question that impacts only the amount
of the recovery but not entitlement to recovery—whether
“applicant” encompasses guarantors under § 1691(a)(1) does
not involve just some random “uncertainty in the Act,”
Norfolk, 549 U.S. at 171, 127 S.Ct. 799. Rather, the answer
to that question determines whether the ECOA will effect one
of its central purposes at all—that is, whether the ECOA will
allow spouses to disentangle their credit, or whether it will
permit lenders to require such entanglement.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

22

23a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

The Majority Opinion’s reliance on Household Credit Servs.,
Inc. v. Pfennig, 541 U.S. 232, 124 S.Ct. 1741, 158 L.Ed.2d
450 (2004), fares no better. In that case, the Supreme Court
concluded that the statutory language of the Truth in Lending
Act was ambiguous on the question at issue there, so it
noted that the agency’s regulation answering the question was
“binding” unless, among other things, “manifestly contrary
to the statute.” Id. at 242, 124 S.Ct. 1741 (citation omitted).
The Court then concluded that the regulation was “in no way
manifestly contrary” to the statute. Id.

Instead of addressing the substance of this argument on
the remedial-purpose doctrine and Dolan’s instruction that
“[a] word in a statute may or may not extend to the outer
limits of its definitional possibilities,” 546 U.S. at 486, 126
S.Ct. 1252, the Majority Opinion accuses this dissent of
engaging in “hornbook abuse of the whole-text canon” and
mischaracterizes my argument as “since the overall purpose
of the statute is to achieve x, any interpretation of the text
that limits the achieving of x must be disfavored.” Maj. Op.
at 1195.

As was the case with the statute in Household Credit, here,
the ECOA is ambiguous on the precise question at issue. And
when we turn to the agency’s interpretation—Regulation B
—as in Household Credit, that regulation is not “manifestly
contrary to the statute.” Id. Rather, as in Household Credit, it
furthers one of the “primary goals” of the statute, see id. at
243, 124 S.Ct. 1741, as I have explained.

*1217 But it’s not that the Majority Opinion’s interpretation
of “applicant” “limits the achieving” of the ECOA’s purpose
of disentangling spouses’ financial fortunes, see Senate Rpt.

Finally, turning to Director, Office of Workers’ Compensation
Programs, Department of Labor v. Newport News
Shipbuilding & Dry Dock Co., 514 U.S. 122, 115 S.Ct. 1278,
131 L.Ed.2d 160 (1995), which the Majority Opinion suggests
“ridiculed” the remedial-purpose doctrine and rendered it no
longer good law, Maj. Op. at 1195 (citing Newport News,
514 U.S. at 135, 115 S.Ct. 1278), that’s not an accurate
description of that case. Rather, the Court ridiculed the
petitioner’s attempt to rely on the doctrine in that case, when
the Court was not even analyzing a remedial statute. In
fact, the Court discussed—at some length—that the statute’s
“goal” was not clear. See id. at 131, 115 S.Ct. 1278. Not only
did the Court not invalidate the remedial-purpose doctrine, the
Court recognized that the principle of construing any statute
broadly to achieve its purposes could be invoked “in case of
ambiguity,” id. at 135, 115 S.Ct. 1278, which I submit is the
case here. And finally, the Court in Newport News went on
to construe the statute at issue “as liberally as can be.” Id. at
136, 115 S.Ct. 1278.
But you don’t have to take it from me; you can take it
from the Court itself. Seven years after issuing Newport
News, the Supreme Court unanimously applied the remedialpurpose doctrine in S.E.C. v. Zandford, 535 U.S. 813, 819,
122 S.Ct. 1899, 153 L.Ed.2d 1 (2002) (“[W]e have explained
that [Section 10(b) of the Securities Exchange Act] should
be construed not technically and restrictively, but flexibly
to effectuate its remedial purposes.”) (citation and internal
quotation marks omitted).

at 16–17; 21 it’s that it is antithetical to that reason for the
ECOA.
21

See also Mayes, 167 F.3d at 676 (Congress also set out
“to prevent loans from being conditioned automatically
on the securing of the signature of the non-borrowing
spouse.”).

The guarantor spouse often suffers a unique economic injury
that the primary debtor spouse does not. Say the creditor
refuses to extend the loan unless the wife guarantees it, so the
wife agrees to do so. But the husband—the direct debtor—
may have no complaints, since he received the loan he was
after. And even if he did, he may well not have economic
damages to assert in a lawsuit. See, e.g., Mayes, 167 F.3d at
678 (“[The husband] has no claim for damages or injunctive
relief under ECOA for harm done to his wife. If anyone was
injured by requiring [the wife] to sign the guarantee, it was
she and not [the husband], who after all received the loan he
had sought.”). Without the potential for redress, he would lack
standing.
By contrast, the wife who guaranteed the loan may have a
separate injury stemming from the fact that her credit score is
likely lower because she agreed to be secondarily liable for the
loan. See Mechel Glass, Equifax, Should I Co-Sign On a Loan
for a Family Member?, available https://blog.equifax.com/
tag/credit-score/page/4/ (last visited Aug. 27, 2019). So she
may have suffered an injury if she sought credit and was
unable to obtain it, or if any credit she did receive either was
more limited or bore a higher interest rate than it would have
had she not been required to guaranty her husband’s loan. Yet
construing “applicants” to exclude guarantors would mean
nobody in this scenario would have standing to pursue the
creditor’s flagrant violation of the ECOA.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

23

24a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

And worse yet, allowing lenders to, with impunity, require
wives to guaranty their husbands’ debts actually creates the
same financial intertwinement problems that arose when
lenders demanded that women like Billie Jean King obtain
their husbands’ guaranties before lenders would extend credit
to them. In both cases, the wives’ credit is forever tied to the
husbands’ credit fortunes.
As a result, guaranteeing the husband’s loan can “negatively
impact [the wife’s] credit report and creditworthiness,”
since guaranteeing a loan shows up on credit reports
immediately. Glass, supra, at 26. And if the husband
“miss[es] payments or default[s] on the loan, [the wife’s]
credit reports will show the delinquencies,” ruining her
credit history and ability to secure future credit. TransUnion,
The Benefits & Issues of Co-Signing a Loan, available
at http://www.transunion.com/personal-credit/credit-issuesbad-credit/cosigning-aloan.page (last visited Aug. 27, 2019).
So far from “ ‘open[ing] vistas of liability’ that Congress
did not envision,” Maj. Op. at 1196 (quoting Moran Foods,
Inc. v. Mid-Atl. Market Dev. Co., LLC, 476 F.3d 436, 441
(7th Cir. 2007)), construing “applicants” to include guarantors
actually effectuates Congress’s goal of disentangling spouses’
credit. In contrast, the interpretation the Majority Opinion
and the Eighth Circuit in Hawkins offer creates the very
entanglement of spouses’ credit Congress sought to eradicate.
That Congress would have prohibited one form of enforced
credit entanglement and unworthiness only to allow another
to fully replace it makes about as much sense as ice-hockey
cleats. See W. Air Lines, Inc. v. Bd. of Equalization, 480 U.S.
123, 133, 107 S.Ct. 1038, 94 L.Ed.2d 112 (1987) (“[I]llogical
results ... argue strongly against the conclusion that *1218
Congress intended” a particular statutory construction).
The Majority Opinion’s reliance on Judge Colloton’s
Hawkins concurrence—where Judge Colloton argued that the
word “application” should have only one meaning throughout
the ECOA—is similarly misplaced. Maj. Op. at 1192–
93. I understand Judge Colloton’s concern. After all, we
“ordinarily assume[ ] that identical words used in different
parts of the same act are intended to have the same meaning.”
Utility Air Reg. Grp. v. E.P.A., 573 U.S. 302, 319-20, 134 S.Ct.
2427, 189 L.Ed.2d 372 (2014) (citations omitted). But that
assumption is not absolute. It “readily yields whenever there
is such variation in the connection in which the words are
used as reasonably to warrant the conclusion that they were
employed in different parts of the act with different intent.”

Atl. Cleaners & Dyers v. United States, 286 U.S. 427, 433,
52 S.Ct. 607, 76 L.Ed. 1204 (1932); see also Yates v. United
States, 574 U.S. 528, 135 S. Ct. 1074, 1082, 191 L.Ed.2d 64
(2015) (“In law as in life ... the same words, placed in different
contexts, sometimes mean different things.”). This is one of
those times, or else the ECOA ensures the existence of the
very problem it seeks to eliminate.
Even assuming some parts of the ECOA suggest—or even
require—a narrow interpretation of the word “applicant,” that
does not mean that the term as used in 15 U.S.C. § 1691(a)
(1) must be similarly construed, since “a characterization
fitting in certain contexts may be unsuitable in others.” See
NationsBank of N.C., N.A. v. Variable Annuity Life Ins. Co.,
513 U.S. 251, 262, 115 S.Ct. 810, 130 L.Ed.2d 740 (1995).
For instance, to make his point, Judge Colloton primarily
invokes 15 U.S.C. § 1691(d), titled, “Reason for adverse
action; procedure applicable; ‘adverse action’ defined.” That
subsection articulates what happens when a lender denies or
revokes credit to a debtor. It therefore makes sense that it
applies to the person who would have received or actually
received the loan.
Section 1691(a), on the other hand, is the statute’s vehicle
for proscribing discrimination on the basis of marital status.
By both its terms and its function, it has broader application
than the provisions to which Judge Colloton points. Cf. Atl.
Cleaners, 286 U.S. at 435, 52 S.Ct. 607 (“A consideration
of the history [of the ECOA] ... sanctions the conclusion that
Congress meant to deal comprehensively and effectively with
the evils resulting” from discrimination). Indeed, it directly
effects Congress’s purposes in enacting the ECOA in the
first place—preventing credit discrimination on the basis of
marital status and allowing spouses to disentangle their credit
from one another. And its text, as I have noted, makes it
applicable to “any aspect” of a credit transaction.
That Judge Colloton’s citations are exclusively to other
provisions of 15 U.S.C. § 1691 does not change this
fact. See Hawkins, 761 F.3d at 943–44 (Colloton, J.,
concurring). “Most words have different shades of meaning
and consequently may be variously construed, not only when
they occur in different statutes, but when used more than once
in the same statute or even in the same section.” Envtl. Def. v.
Duke Energy Corp., 549 U.S. 561, 574, 127 S.Ct. 1423, 167
L.Ed.2d 295 (2007) (emphasis added) (citation and alteration
omitted); accord Gen. Dynamics, 540 U.S. at 595-97, 124
S.Ct. 1236 (“age” has different meanings in 29 U.S.C. §
623(a) and § 623(f) of the Age Discrimination in Employment

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

24

25a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

Act of 1967); Robinson, 519 U.S. at 342–43, 117 S.Ct. 843
(“employee” has different meanings in different parts of 42
U.S.C. § 2000e–16(b) of Title VII of the Civil Rights Act of
1964); see also *1219 Wachovia Bank, N.A. v. Schmidt, 546
U.S. 303, 313–14, 126 S.Ct. 941, 163 L.Ed.2d 797 (2006)
(“located” has different meanings in different sections of the
National Bank Act).
But even if we were to hold that the term “applicant”
as used throughout the statute includes guarantors, that is
a better answer than the Majority Opinion’s conclusion.
Judge Colloton’s examples suggest that such an interpretation
could create unexpected benefits for guarantors. That is
preferable to gutting the statute’s reason for being. The
Majority Opinion’s interpretation does not simply “limit[ ] the
achieving” of what Congress sought with the ECOA, Maj. Op.
at 1194–95 (citation omitted); as I have explained, it “would
be destructive of [the law’s] purpose. ...” Robinson, 519 U.S.
at 346, 117 S.Ct. 843.
So the Majority Opinion’s analysis cannot carry the day.
“[T]he overriding national policy against discrimination that
underlies the [ECOA]” means that “we cannot give” words in
that statute a “narrow interpretation.” Bros. v. First Leasing,
724 F.2d 789, 793 (9th Cir. 1984). Instead, we must “construe
the literal language of the ECOA in light of the clear, strong
purpose evidenced by the Act and adopt an interpretation
that will serve to effectuate that purpose.” Id.; see also
United States v. Am. Trucking Ass’ns, 310 U.S. 534, 543,
60 S.Ct. 1059, 84 L.Ed. 1345 (1940) (“[W]hen the plain
meaning did not produce absurd results but merely an
unreasonable one ‘plainly at variance with the policy of
the legislation as a whole[,]’ this Court has followed that
purpose, rather than the literal words.”) (citation omitted).
Considering Congress’s remedial purposes in enacting the
ECOA, as well as that the many definitions of “applicant”
do not exclude the possibility that an “applicant” includes a
guarantor, we must conclude that Congress’s employment of
the term “applicant” is ambiguous with respect to whether
it covers guarantors. For this reason, we must conduct a
Chevron analysis of the Federal Reserve’s answer to our
question of whether the ECOA includes guarantors within the
definition of “applicants.”

C.

contrary to the statute.’ ” Mayo Found. for Med. Educ.
& Res. v. United States, 562 U.S. 44, 53, 131 S.Ct. 704,
178 L.Ed.2d 588 (2011) (quoting Pfennig, 541 U.S. at 242,
124 S.Ct. 1741). At bottom, then, we must ask whether the
Federal Reserve’s inclusion of guarantors in the ECOA’s
definition of “applicant” is a “reasonable interpretation” of the
ECOA’s text. Chevron, 467 U.S. at 844, 104 S.Ct. 2778. The
Federal Reserve’s interpretation is reasonable for at least three
reasons: it accords with the ECOA’s text; it furthers a primary
purpose of the ECOA; and, Congress has tacitly approved of
the Federal Reserve’s interpretation.
1. The Federal Reserve’s inclusion of guarantors within the
meaning of “applicants” is consistent with the ECOA’s text.
First, guarantors fit within the plain meaning of “applicants.”
As I have noted, leading authorities recognize that guarantors
apply to the creditor by asking it to extend credit to the
primary debtor. See supra at 1213.
The Majority Opinion’s conclusion to the contrary rests on
its premise that “[a]lthough a guarantor makes a promise
related to an applicant’s request for credit, the guaranty
is not itself a request for credit.” Maj. Op. at 1191. But
the Majority Opinion offers no support (beyond the Eighth
Circuit’s erroneous conclusion in Hawkins) for the notion
that the guarantor is not requesting that the creditor extend
credit to the primary borrower. Not a treatise. *1220 Not
an industry source. Not another statute. Not a dictionary.
Not even something from the remote reaches of the internet.
Instead, the Majority Opinion relies on its own understanding
of credit markets.
But the Majority Opinion’s own view—regardless of how
learned and reasonable—of how terms are used in credit
markets, does not control if the agency’s interpretation is also
reasonable. Indeed, “[t]he reviewing court may not substitute
its judgment for that of the agency but must, instead, defer to
the agency’s technical expertise” if its interpretation is within
the range of reasonableness. Miami-Dade Cty. v. E.P.A., 529
F.3d 1049, 1065 (11th Cir. 2008) (citation and quotation
marks omitted). And here, as I have noted, leading treatises
and industry sources recognize that guarantors request credit.
See supra at 1213. Since the Federal Reserve’s interpretation
of the text is reasonable—not to mention well-supported—we
must defer to it.

Under Chevron, “we may not disturb an agency rule unless
it is ‘arbitrary or capricious in substance, or manifestly

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

25

26a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

2. The Federal Reserve’s inclusion of guarantors within the
meaning of “applicants” is consistent with primary purposes
of the ECOA.
Second, the Federal Reserve’s interpretation is reasonable
because covering “guarantors” fits squarely within the
wheelhouse of the ECOA’s aims. As I have noted, in enacting
the ECOA, Congress sought to disentangle sex and marital
status from credit. See Senate Rpt. at 16–17. Congress also set
out “to prevent loans from being conditioned automatically on
the securing of the signature of the non-borrowing spouse.”
Mayes, 167 F.3d at 676.
The Federal Reserve’s interpretation accounts for and respects
these primary goals of the ECOA. But not including
guarantors within the definition of “applicants” yanks the
teeth out of the ECOA. See supra at 1216–18.
3. The Federal Reserve’s inclusion of guarantors within the
meaning of “applicants” is consistent with congressional
abstention from amending the ECOA to preclude that
interpretation, despite Congress’s other amendments to the
ECOA.
Third, the Federal Reserve’s interpretation of “applicants” to
include guarantors is reasonable, in view of congressional
action on the ECOA since its enactment in 1974. The Supreme
Court has instructed us to tread lightly where Congress
has amended a statute but declined to disturb the agency’s
interpretation.
For instance, in Texas Department of Housing & Community
Affairs v. Inclusive Communities Project, Inc., ––– U.S.
––––, 135 S. Ct. 2507, 192 L.Ed.2d 514 (2015), the
Court considered whether the statutory language authorized
disparate-impact claims under the Fair Housing Act. In
conducting its analysis, the Court found it significant
that Congress declined to alter the language at issue to
preclude such claims, even though Congress had amended the
statute after several Circuits had determined that the statute
authorized such claims. Id. at 2519. Congress’s inaction, the
Court explained, was “convincing support for the conclusion
that Congress accepted and ratified the unanimous holdings
of the Courts of Appeals finding disparate-impact liability.”
Id. at 2520; see also Gen. Dynamics, 540 U.S. at 593–94
& n.6, 124 S.Ct. 1236 (noting that the two federal appellate
courts and nearly all the district courts to consider the issue
held that the Age Discrimination in Employment Act of 1967

did not prohibit favoring older employees over younger ones:
“The very strength of this consensus is enough to rule out
any serious claim of ambiguity, and congressional silence
after years of judicial interpretation supports adherence to the
traditional view.”).
*1221 Here, Congress has tinkered with the ECOA no
fewer than three times since 1985, when the Federal Reserve
began construing the ECOA to include guarantors within the
term “applicants.” See, e.g., Dodd-Frank Wall Street Reform
and Consumer Protection Act, Pub. L. 111-203, §§ 1071,
1474, 124 Stat. 1376, 2056–57, 2199–2200 (2010); Omnibus
Consolidated Appropriation Act, 1997, Pub. L. 104-208,
§ 2302, 110 Stat. 3009 (1996); Federal Deposit Insurance
Corporation Improvement Act of 1991, Pub. L. 102-242, §§
212(d), 223, 105 Stat. 2236 (1991).
And up until 2014, when the Eighth Circuit issued Hawkins,
the “vast majority of courts” that examined the issue found
that guarantors had standing under the ECOA. See RL BB,
754 F.3d at 386. True, as the Majority Opinion notes, many
of the cases deciding this issue offered little reasoning for
their decisions. Maj. Op. at 1196–97. But the Supreme Court
does not require otherwise. While the Court acknowledged
the judicial consensus of the interpretation of the Fair Housing
Act in Texas Department of Housing, contrary to the Majority
Opinion’s characterization, it did not require the lower courts’
decisions to be “reasoned.” Maj. Op. at 1197. It noted simply
that the courts that had “addressed” the issue had consistently
come out the same way. Tex. Dep’t of Hous., 135 S. Ct.
at 2519. And most of the cases the Court referenced were
not particularly well-reasoned; they just adopted what other
circuits had done. See, e.g., Hanson v. Veterans Admin., 800
F.2d 1381, 1386 (5th Cir. 1986) (noting and adopting analysis
from other circuits that Fair Housing Act violations can be
proven with a showing of discriminatory effect); Arthur v.
City of Toledo, Ohio, 782 F.2d 565, 574–75 (6th Cir. 1986)
(same); United States v. Marengo Cty. Comm’n, 731 F.2d
1546, 1559, n.20 (11th Cir. 1984) (same); Smith v. Town of
Clarkton, N.C., 682 F.2d 1055, 1065 (4th Cir. 1982) (same);
Halet v. Wend Inv. Co., 672 F.2d 1305, 1311 (9th Cir. 1982)
(same).
The more important point, though, is that Congress has long
been on notice as to how federal courts have interpreted
the ECOA and Regulation B. And with that knowledge
in hand, Congress amended the law multiple times and
never considered tweaking the ECOA to abrogate these
courts’ approval of the Federal Reserve’s interpretation.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

26

27a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

Even after the Seventh Circuit issued Moran, in which a
Court of Appeals—for the first time—voiced doubts in dicta
about the Federal Reserve’s interpretation, Congress left the
ECOA’s definition of “applicant” the same, even though it
substantively amended the ECOA three years later, in 2010.
So Congress declined to take the Seventh Circuit up on its
invitation to cap the supposed “vistas of liability” that the
Seventh Circuit concluded Congress was “unlikely to accept.”
Moran, 476 F.3d at 441. Congressional inaction on this point
in the face of thirty years of uniformity “supports adherence
to the traditional view,” Gen. Dynamics, 540 U.S. at 594, 124
S.Ct. 1236, that the Federal Reserve’s inclusion of guarantors
within the term “applicants” is valid.

III.
We should dismiss this case because it is not properly before
us. The Majority Opinion’s insistence on “resolving” a claim
that no Appellant has presented to us renders its discussion
of the ECOA unnecessary. But because that discussion
incorrectly purports to truncate the ECOA’s broad reach,
it leaves me no choice but to respond. Unfortunately, the
Majority Opinion’s analysis artificially limits the definitions
of “applicant” and “guaranty”; it conflicts with congressional
aims in enacting the ECOA; and it is rebutted by Congress’s
failure to amend the ECOA to make guarantors fall outside
the meaning *1222 of “applicants,” in the 34 years since
the Federal Reserve has construed the term “applicants”
to include guarantors. Ultimately, the Majority Opinion’s
interpretation of the ECOA ironically allows lenders to get
away with discriminating on the basis of sex or marital status,
the very thing the ECOA meant to eliminate. I therefore
respectfully dissent.

*1223

Appendix A

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

27

28a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

*1224
*1225

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

28

29a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

*1226

*1227

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

29

30a
Regions Bank v. Legal Outsource PA, 936 F.3d 1184 (2019)
28 Fla. L. Weekly Fed. C 256

All Citations
936 F.3d 1184, 28 Fla. L. Weekly Fed. C 256

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

30

